<html>
<title> - U.S. POLICY IN AFGHANISTAN AND THE REGIONAL IMPLICATIONS OF THE JUNE 2014 TRANSITION</title>
<body><pre>[Senate Hearing 113-634]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-634
.                                               
                      U.S. POLICY IN AFGHANISTAN AND 
                       THE REGIONAL IMPLICATIONS OF 
                       THE JUNE 2014 TRANSITION
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                                     
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-350 PDF                WASHINGTON : 2015                      

______________________________________________________________________________________                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  
               
                
                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     2
Dobbins, Hon. James, Special Representative for Afghanistan and 
  Pakistan, U.S. Department of State, Washington, DC.............     3
    Prepared statement...........................................     6
    Response to question submitted for the record by Senator 
      Robert Menendez............................................    39
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    41
Magsamen, Kelly E., Acting Assistant Secretary, Asian and Pacific 
  Security Affairs, Department of Defense, Washington, DC........    10
    Prepared statement...........................................    12
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    39
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1

                                 (iii)

  

 U.S. POLICY IN AFGHANISTAN AND THE REGIONAL IMPLICATIONS OF THE JUNE 
                            2014 TRANSITION

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m, in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Murphy, Kaine, 
Corker, Risch, Rubio, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good afternoon. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Let me thank both of our witnesses for joining us today as 
we consider U.S. policy in Afghanistan and the regional 
implications of the drawdown of international forces.
    The hearing comes at a critical time. The President has 
announced his drawdown plan. The Bergdahl transfer took place, 
and a second round of Presidential elections was held on 
Saturday. The images of Afghans, especially women, lining up to 
vote were inspiring and a testament to the broad commitment to 
the democratic process. But no matter who ultimately wins, the 
incoming government will face significant challenges, some of 
crisis proportions.
    First, I have real concerns about the viability of the 
Afghan economy, which has already begun to contract with the 
drawdown of international forces. According to SIGAR, U.S. 
assistance over the past 7 years was equivalent to about 75 
percent of the country's GDP. I understand that Afghanistan 
will require assistance both off and on budget for quite some 
time, but what I have never seen is a credible and 
comprehensive plan for real sustainability in Afghanistan that 
incorporates past projects and future work. To continue to 
support robust assistance, I will need to see a serious 
examination of project sustainability.
    Second and above all, the new government will face an 
ongoing security challenge. The Afghan National Security Forces 
performed well during the last fighting season and protected 
voters during these two rounds of elections. But as we look 
forward, those forces still do not have the logistical 
capabilities nor close air support that will be required in an 
ongoing fight against the insurgency.
    And finally, this hearing will also explore the regional 
implications of the drawdown. Pakistan announced a full-scale 
operation into North Waziristan over the weekend, a long 
overdue move in my view, which indicates that their government 
is taking the threat from cross-border terrorist groups more 
seriously. We have heard that our friends in India and the 
governments of Central Asia are concerned about what the 
drawdown will mean for regional stability in the years ahead.
    So today, I hope that we will hear the administration's 
vision for security in the region and how U.S. interests will 
be protected in this dynamic and volatile part of the world. 
Will the threat posed by terrorist groups in the region change 
following the drawdown of U.S. troops? How will our security 
cooperation with countries in the region evolve?
    It must be said Afghanistan is not Iraq, but it is hard not 
to draw comparisons to today's security situation in Iraq and 
what we could see in the coming years as we wind down our 
presence in Afghanistan. At the end of the day, we have to 
guard against letting history repeat itself because of 
decisions we make and actions that we fail to take. Today, I 
hope our panelists can help clearly lay out the choices that 
are before us.
    Frankly, last month when the administration announced plans 
to completely draw down forces from Afghanistan by 2016, I was 
concerned about the plan and I still have concerns. We have 
made hard-fought but fragile gains in Afghanistan that need to 
be protected through continued support of the ANSF and the 
Afghan Government.
    And finally, alongside our regional security efforts, the 
administration has embarked on a new Silk Road initiative which 
seeks to strengthen Afghanistan's economic ties in the region. 
In my view, this could be a boon for Afghanistan's economy, but 
I am concerned that long-standing barriers to regional 
cooperation may prove too great to overcome.
    So I look forward to hearing in detail from Ambassador 
Dobbins how this vision is being translated into reality and 
what challenges lie ahead. Before I introduce both of our 
witnesses, let me recognize Senator Corker for his opening 
remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you very much for 
having this hearing.
    And to the two of you, thank you for coming here and 
helping us understand what is developing in the region.
    As was said, an election process is underway. Hopefully, it 
is going to be one that the people of Afghanistan consider is 
valid. It looks like that may well be the case, as has been the 
norm. Obviously, claims of fraudulent activity are taking 
place, and whether that is just someone who is behind in a race 
trying to put themselves in a better position or whether that 
is actually occurring, we will see. But it appears that the 
election process has gone by in a way that hopefully will have 
some degree of credibility and we can move on.
    As the chairman mentioned, the President's announcement 
regarding having 9,800 troops after this year in Afghanistan--
candidly the first part of that for me was one that is 
welcomed. I was very concerned that there were people at the 
White House pushing for a zero number, and I know they were 
pushing. Fortunately, they were not successful. I think all of 
us know--who have talked with General Dunford--the only way for 
us to have a multiplier effect around the country where we are 
enabling the five areas of the country outside of Kabul to 
actually continue to put forth security is for us to have that 
number of troops. On the front end, I will say General Dunford 
was pushing for 10,000 troops. The President has agreed to 
9,800 troops. That is a good thing.
    The second part of the announcement, though, where 
artificially we are deciding that you are going to step down 
over the next 2 years to zero is something that is 
unacceptable. I hope the President will revisit that. I hope he 
will take steps relative to what is happening on the ground. My 
sense is--and I hope this is the case--that that was simply a 
statement for domestic consumption, one we have seen a lot of 
out of this administration, to hopefully assuage people back 
home. But obviously, based on what we have seen in Iraq, making 
decisions about timelines that have nothing to do with what is 
happening on the ground have been very detrimental to the 
region. And as the chairman mentioned, there are a lot of 
concerns in the region about this statement, which again we 
hope is one that is only rhetorical, not based in reality. But 
with that, hopefully progress will be made, and hopefully, a 
decision about the number of troops that will actually remain 
there over time again will be based on what is happening on the 
ground.
    I know the special envoy will have some statement to be 
made about the other issue relative to some of the switches 
that have occurred recently. I look forward to that. I 
appreciate his call, and I look forward to the testimony of 
both of you today.
    Thank you.
    The Chairman. Thank you, Senator Corker.
    So we are pleased to have with us today Ambassador James 
Dobbins, Special Representative for Afghanistan and Pakistan. 
Ambassador Dobbins is no stranger to the committee or to that 
part of the world. So we welcome you back, Ambassador, to the 
committee. And Kelly E. Magsamen, who is the Acting Assistant 
Secretary for Asian and Pacific Security Affairs of the Defense 
Department.
    I will just start off by saying we will include your full 
statements in the record, without objection. I would ask you to 
try to summarize your statements in around 5 minutes or so so 
that we can enter into a dialogue with you. And, Ambassador, we 
will start with you.

  STATEMENT OF HON. JAMES DOBBINS, SPECIAL REPRESENTATIVE FOR 
AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Dobbins. Thank you, Mr. Chairman, Senator 
Corker, members. I would like to start by thanking this 
committee for its continuous support for our country's efforts 
in Afghanistan. I personally much appreciate the counsel and 
support that we have gotten during my tenure.
    I think both Senator Corker and Chairman Menendez have 
raised the issue of whether the President's announcement 
provides sufficient time for the Afghan Armed Forces to develop 
independent and sustainable capabilities and for the country to 
stabilize. And I think the answer is, it can provide enough 
time. Whether it does or not is going to depend on several 
factors. And I would like to go through what those factors are, 
which I think will answer a number of other questions or at 
least raise a number of other questions.
    First of all, it does depend on whether the Afghan security 
forces take advantage of the remaining time, during which they 
will be getting American advice, training, and assistance 
through the presence of an American and NATO military presence. 
There I think that the prognosis is reasonably positive. There 
is little doubt that the Afghan security forces have improved 
measurably over the last 3 or 4 years and even over the last 
year. We have gone from having a presence in Afghanistan of 
NATO and American forces of over 150,000 to having less than 
50,000 today, and during that period, Afghan security forces 
have not crumbled, have not weakened. They have, in fact, 
measurably improved by almost any metric, and I think that is a 
generally recognized fact, that there have been continuous 
improvements in their performance during this period of 
drawdown. And so I think there is a reasonable prospect that 
those improvements can continue and the remaining deficiencies, 
some of which the chairman mentioned, can be made up during 
this period of continued American military presence.
    I would also note that the American military presence is 
not going to disappear in 2017. It will be incorporated in a 
significantly sized Office of Defense cooperation within the 
framework of the American Embassy rather than as an independent 
force. So that is one of the dependents.
    I think it is also going to depend on whether the current 
Presidential elections produce a widely recognized outcome, one 
that is accepted by Afghans as a whole, one that is recognized 
by the international community, one that sustains a continued 
international support, financial support, as well as other 
forms of support.
    So far, as you both noted, the election process has been 
notable for meeting its timetables, for being conducted in a 
reasonable secure environment given the conditions in the 
country, for the moderation and constructiveness of the 
campaign, and for the participation of voters.
    I do think, however, that the most difficult time and the 
greatest challenges are probably still to come. You know, 
Afghanistan--as in other countries, there is not a large record 
of good losers. In situations at Afghanistan's level of 
development, there are levels of corruption. There are fraud. 
There are mechanisms to detect it, but the mechanisms 
themselves become controversial and challenged. It is going to 
be some time before we know the outcome of the vote. It is, 
therefore, critical that everyone, the candidates, their 
supporters, as well as the media and the voters, remain 
patient, not prejudge the outcome and allow the Afghan 
electoral institutions time to do their job effectively in 
accordance with Afghan law.
    As happened in the first round of voting, Afghans who have 
specific concerns and complaints have the opportunity to bring 
them to the independent electoral commission and the 
independent electoral complaints commission. These bodies 
understand that their transparency and their impartiality will 
be critical to ensuring the Afghan people broadly accept 
President Karzai's successor. As I said, we are already seeing 
heightened levels of controversy over the second round, and I 
anticipate we are going to go through a difficult few weeks 
before we have an outcome that is generally accepted and widely 
recognized as reflecting the will of the Afghan people.
    A third factor that is going to be important is, as the 
chairman has noted, the regional behavior. Afghanistan is 
historically a weak state surrounded by more powerful states 
who have often acted in ways that tend to promote conflict in 
Afghanistan. This has not happened in recent years to the 
extent that it has historically. Indeed, there is an unusual 
conjunction of policies in the neighboring states. I think it 
was interesting and maybe remarkable that in the aftermath of 
President Karzai's announcement in December that he was not 
going to sign the bilateral security agreement, President 
Putin, President Xi, Prime Minister Singh, and Prime Minister 
Sharif each individually and privately urged him to sign the 
agreement. That is a pretty unusual conjunction of regional 
states that actually are advising him to support the continued 
presence of an American and NATO military presence, albeit for 
a limited period of time. But still, it does show that there is 
an anxiety about the transition, that there is an anxiety about 
the country's stability, that for the moment at least, all of 
these states are supporting the regime in Kabul, want to see it 
consolidated, want to see us help to continue to support that 
consolidation. We obviously need to maintain that coherence.
    Among Afghanistan's neighbors, Pakistan probably has the 
greatest potential for influence over Afghanistan's future, for 
better or worse. In the past, Pakistan has projected influence 
in Afghanistan by its toleration of and even support for Afghan 
militants. The growth of an indigenous militant threat to 
Pakistan's own constitutional order in the form of the 
Pakistani Taliban, or TTP, and the many links between the 
Afghan and Pakistani Taliban, along with several other militant 
and terrorist groups active in Pakistan, have made this an 
increasingly costly and ultimately unsustainable strategy and 
one that I think most of the Pakistani leadership now recognize 
as wholly unsustainable.
    After an extended effort to negotiate with the TTP, Prime 
Minister Sharif has ordered a major military offensive 
designed, we are told, to clear all militants, foreign and 
domestic, out of their major stronghold in North Waziristan. In 
the short term, this offensive will present challenges to 
Afghanistan as innocent civilian refugees, along with Afghan, 
Pakistani, and other foreign militants flee across the border. 
In the longer term, however, if the Pakistani authorities 
deliver on their promise to deny the use of their territory to 
all militant groups, foreign as well as domestic, this effort 
will significantly enhance security in both Pakistan and 
Afghanistan.
    Finally, the last dependency I would like to mention is 
frankly the dependency for this timetable or any timetable with 
respect to Afghanistan on continued congressional support. In 
the current fiscal year, Congress cut the foreign assistance 
budget to Afghanistan by something like 50 percent. Now, I 
think in the report that accompanied that, it was explained 
that this was caused both by a large buildup in the pipeline 
and frankly also by some provocative and unnecessarily 
provocative statements that President Karzai had made that 
rightly I think caused a great deal of anxiety and annoyance. I 
am hoping that both of these problems will be in the past. The 
pipeline has been reduced. President Karzai will soon be 
succeeded by a new leadership.
    We agree that aid for Afghanistan, both civilian and 
military, particularly in the civilian area, needs to be 
gradually reduced over the next several years, but we would 
urge that this be a gradual process. There is already a number 
of important transitions that are underway in Afghanistan. I 
have talked about the electoral transition. We have talked 
about the military transition. We do not want to pile too many 
abrupt transitions on Afghanistan all at once. So I think the 
administration will go back to the more gradual reduction and 
historic aid levels, which I think were $5 billion only a few 
years ago, and we hope that the Congress will support us in 
this regard.
    Now, we have all read for years about----
    The Chairman. Can I have you wrap up because we are at 10 
minutes already?
    Ambassador Dobbins. Sure. I am done.
    [The prepared statement of Ambassador Dobbins follows:]

             Prepared Statement of Ambassador James Dobbins

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for the opportunity to appear before you today to discuss 
U.S. policy in Afghanistan and the region along with my colleague, 
Acting Assistant Secretary of Defense Magsamen.
    Allow me to begin by thanking the members of the committee for your 
continued support for our mission; I know that you also share my 
appreciation for the generosity and steadfast resolve of the American 
people in support of Afghanistan. I would particularly like to 
recognize the dedication and bravery of thousands of American men and 
women who have served in our armed forces, our diplomatic outposts, and 
our assistance programs in that country.
    This mission began in 2001 to ensure that Afghanistan could never 
again be used by those who would plot against the United States or our 
allies. Since then, in concert with partners from more than 50 nations, 
we have advanced this goal. Working hand in hand with dedicated 
Afghans, we also transformed the lives of millions. All of us--
Americans, Afghans, NATO allies, ISAF partners, and the many other 
countries that have joined this unprecedented international effort
share a vision of a sovereign, unified, democratic, and stable 
Afghanistan, a vision which is closer to realization today than at any 
time in that country's history.
    For several years now, our efforts have increasingly focused on 
consolidating the gains made over the past 13 years, and on empowering 
Afghans and Afghan institutions to deliver security, the rule of law, 
and vital services, including health, education, and economic 
opportunity, that all Afghans deserve. That is why we launched a 
process of transition in 2010, by which the Afghan National Security 
Forces have increasingly taken the lead role in protecting the Afghan 
people from insurgents who would turn back the clock on the 
extraordinary changes in Afghanistan. When Afghan and NATO leaders 
announced in Lisbon in 2010 that, by the end of 2014, Afghans would 
have full responsibility for their own security, many said the timeline 
was unrealistic--that the ANSF was simply not up to the challenge. A 
year ago last June, however, we marked the ``milestone'' of transition 
to Afghan lead on all combat operations throughout the country. Since 
then, Afghan forces have won the trust of the Afghan citizens in their 
ability to protect them, a trust that was manifest in the high voter 
turnout during both rounds of the recent elections.
    Last month, President Obama announced that, contingent on the 
conclusion of the Bilateral Security Agreement (BSA), the United States 
is prepared to keep 9,800 troops beyond the end of this year to 
participate in a NATO train, advise, and assist mission, and to 
continue a limited counterterrorism mission. By the end of 2015, U.S. 
forces will shift to a Kabul-Bagram disposition. By 2017, the U.S. 
security mission in Afghanistan will transform to an embassy-based 
security assistance model with a significant military and defense 
component. The President also made clear that 2017 will not mark the 
end of our commitment to Afghanistan. Afghans will need the assistance 
and partnership of the international community for years to come to 
strengthen their institutions, economy, and government. With continued 
support from Congress and the American people, the commitments in the 
Strategic Partnership Agreement, at the NATO summit in Chicago, and at 
the Tokyo Conference will help ensure that Afghanistan continues on a 
path of self-reliance and democratic development.
    The timetable President Obama has laid out for Afghan self-
sufficiency is a demanding one, but no more demanding than the 
transition already accomplished. Since 2011, NATO forces in Afghanistan 
have dropped from over 140,000 to 48,000 today, without occasioning any 
substantial loss of ground or population to the Taliban.
    Institutional capacity has also grown beyond the security sector, 
as evidenced by the recent Presidential and local elections, the first 
to be administered almost entirely by the Afghans, the first to have 
occurred on schedule, and the best organized to date.
    In April, roughly 7 million Afghans voted in the first round of the 
Presidential election--significantly higher than the turnout of the 
2009 vote. Last Saturday, the runoff pitted two strong candidates 
against each other. On both occasions, Afghan forces provided the 
security, Afghan electoral bodies planned and administered the voting, 
Afghan media provided platforms for reasoned discussion about policy, 
Afghan civil society organizations and candidate agents monitored the 
polling centers, and Afghan political elites formed multiethnic tickets 
and campaigned all across the country.
    Equally notable was the quality of the campaign, which was spirited 
and widespread, while generally moderate in tone and national in 
character. The candidates crisscrossed the country, participated in 
large rallies, while generally eschewing negative campaigning and 
narrow ethnically based appeals.
    The first round of Afghan Presidential elections in April and 
Saturday's runoff put the ANSF to the test. On both occasions the 
Taliban organized hundreds of attacks, but Afghans still lined up to 
vote. Last Saturday, NATO forces did not fire a single shot, leaving 
election day security entirely in Afghan hands. Considering how much 
the Taliban had focused on disrupting the Afghan elections, the ANSF's 
efforts to secure the election bode well for the ANSF's performance in 
the long run.
    It will be some time before we know the outcome of the vote. It is 
therefore critical that everyone--the candidates and their supporters, 
as well as the media and the voters--remain patient, not prejudge the 
outcome and allow the Afghan electoral institutions time to do their 
jobs effectively and in accordance with Afghan law. As happened in the 
first round of voting, Afghans who have specific concerns and 
complaints have the opportunity to bring them to the Independent 
Election Commission and the Independent Electoral Complaints 
Commission. Those bodies understand that their transparency and 
impartiality will be critical in ensuring that the Afghan people 
broadly accept President Karzai's successor as legitimate and credible. 
Premature or undocumented allegations of fraud are as dangerous as 
fraud itself.
    The Afghan Government has tentatively scheduled the inauguration of 
the next President for August 2, and we look forward to working with 
whoever that will be. At the same time, we also recognize the need for 
national unity, and call on both candidates to work together after the 
election in the spirit of patriotism that has marked the campaign so 
far.
    The next Afghan President faces many challenges and uncertainties. 
What is certain is the commitment of the United States to our 
partnership with Afghanistan. An important aspect of this is our 
commitment, which President Obama reiterated on May 28, to conclude the 
BSA with the next Afghan administration as quickly as possible. With 
both Presidential frontrunners having stated publicly that they would 
sign the BSA promptly upon taking office, the way forward on this now 
appears clear.
    Let me also recognize the vast improvements in human rights that 
have been made since 2001--none more striking than the gains made by 
women. There are serious concerns that as our presence draws down, 
these rights will somehow be sacrificed. I am encouraged that both 
candidates made strengthening the rule of law, the protection of human 
rights and improving governance central tenets of their campaign 
platforms. Independent institutions like the judiciary and the human 
rights commission have a critical role to play in ensuring that there 
is no backsliding on the gains that have been made, and it is important 
that the next President nominate and appoint strong, qualified, and 
reform-minded individuals to lead these bodies. The United States 
remains committed to supporting and bolstering the transparency of 
these institutions so that all Afghans have confidence that their 
rights will be protected. Crucial as well to promoting accountability 
and respect for human rights is an independent, vibrant civil society--
which has blossomed remarkably in Afghanistan over the past decade, and 
must retain the operating space to do its vital work.
    And in terms of governance, we all must remember that Parliamentary 
elections are less than a year away. Parliament has made important 
strides in adopting new laws, in vetting Presidential nominations and 
in serving as an oversight body to improve government accountability. 
Parliamentarians will need to continue performing these important 
functions, even as the campaign season for the legislative elections 
approaches. And the next President and the security institutions will 
need to work closely with the electoral bodies to ensure those 
elections are timely and successful.
    Given the progress that has been made in the political transition 
thus far, we are also beginning to think about how best to help the new 
Afghan President to address the myriad challenges he will face. The new 
President will need to strengthen Afghan executive, legislative, and 
judicial institutions; address corruption, which is corrosive to the 
legitimacy of the Afghan state; pursue economic reforms that will 
enable private sector led growth and stabilize the fiscal environment; 
determine a path for launching a reconciliation process; and set a 
constructive course for improving relations between Afghanistan and its 
neighbors. In my experience, governments all around the world often 
have problems doing more than one or two things at a time--which makes 
the scope of the agenda faced by the Afghan state all the more 
daunting.
    We have a stake in supporting the new government as it confronts 
these challenges and strives to not just maintain, but build on the 
progress that has been made over the last 12 years. The President's 
announcement of our post-2014 presence is a step toward defining this 
long-term commitment. To support this agenda and ensure it is 
effective, we will need continuing support from Congress. Afghanistan 
will require significant U.S. and international attention for years to 
come--including continuing robust levels of development and security 
assistance.
    In 2012, we joined with the rest of the international community in 
Tokyo to outline a program of sustained international support combined 
with an Afghan-led program of reform and institutional development. 
This ``mutual accountability'' acknowledged that foreign assistance 
would necessarily decline--but that we would seek to graduate that 
decline so as to protect the gains achieved with our support and 
investments. When Congress cut the fiscal year 2014 appropriation for 
Afghanistan by 50 percent, it noted the difficult bilateral 
relationship, and particularly the failure of the Afghan Government to 
sign the BSA, as well as the existing funding pipeline.
    We believe the President's fiscal year 2015 foreign assistance 
request for Afghanistan, although it represents an increase from the 
previous appropriation, reestablishes a responsible, downward 
trajectory for our assistance and reflects what we expect to be a 
productive working relationship with the new Afghan Government and the 
reality of a much diminished pipeline. As we reduce our assistance over 
time, it is critical that we defend the gains made over the past year, 
including by Afghan women and girls, and give the Afghan Government the 
time and space necessary to build sustainable sources of revenue.
    Later this year, the United Kingdom has agreed to organize a 
conference to review progress since Tokyo, and to enable the new Afghan 
Government to present its plan for inclusive economic growth and 
increasing sustainability. As I mentioned earlier, the challenges, most 
notably corruption, are significant, but they are issues that the 
current Presidential candidates stressed during the campaign.
    Both candidates have also talked about the need for a process of 
political reconciliation to bring an end to the bloodshed and violence 
that has wracked Afghanistan for three decades and ensure its long-term 
stability. The specifics of such an effort will be for the new Afghan 
President to decide, but United States will continue to support steps 
that improve the climate for an Afghan-led reconciliation process. Our 
objective has been and continues to be to promote and support a 
political process by which Afghans sit down with other Afghans to 
determine the future of their country. Both Presidential candidates 
have promised to pursue efforts at peace and reconciliation. This past 
weekend again demonstrated the desire of the Afghan people for peace, 
their determination to decide their future for themselves, and their 
commitment to do so through free elections. That underscores the 
conviction we share with the Afghan people that, as part of the outcome 
of any reconciliation process, the Taliban and other insurgent groups 
must break ties with al-Qaeda, end violence, and accept Afghanistan's 
Constitution, including its protections for women and minorities.
    One of the potentially positive factors weighing in favor of 
stability in Afghanistan is the increasing convergence of regional 
interests. States across the region are recognizing that their 
stability is linked to Afghanistan's stability and prosperity. Late 
last year, after President Karzai chose to delay signing the BSA, 
President Xi, President Putin, Prime Minister Singh, and Prime Minister 
Sharif each engaged with him to urge that he conclude the agreement. It 
is extraordinary that the Russians, Chinese, Indians, and Pakistanis 
would all support the continuation of a U.S. and NATO military mission 
in Afghanistan for at least several more years.
    Clearly, as this unusual conjunction of regional views indicates, 
the U.S. and NATO drawdown is a source of anxiety for regional powers. 
Pakistan, Uzbekistan, and China all fear Afghanistan becoming a safe 
haven for their own hostile militant groups. India fears Afghanistan 
again becoming a training ground for terrorist groups targeting them. 
Russia remains concerned about the flow of narcotics. Iran and Pakistan 
fear new floods of refugees. For the present these varying concerns 
have led to a convergence of policy, in favor, Iran excepted, of a 
continued U.S. and NATO presence, and in support of the existing 
constitutional regime in Kabul. The United States consults with all of 
these countries in various multilateral forums, and, again with the 
exception of Iran, also does so on a frequent bilateral basis.
    There remains, however, great untapped potential from connecting 
Afghanistan economically with its neighbors to the north and south. 
This is why we are working to promote regional economic connectivity in 
the broader South and Central Asia region through the New Silk Road 
initiative. Increased economic connectivity will also improve regional 
security and stability by giving Afghanistan's neighbors a bigger stake 
in Afghanistan's future. Of course, regional connectivity in South and 
Central Asia is a challenging undertaking in the world's least 
economically integrated region. We have seen encouraging steps such as 
improved trade, transportation, and energy links between Afghanistan 
and Central Asia. To help create a regional Central Asia-South Asia 
energy market, the United States is supporting the CASA-1000 
electricity transmission project, which when completed, will enable 
Tajikistan and Kyrgyzstan to supply 1,300 megawatts of surplus summer 
hydropower to Afghanistan and Pakistan.
    While we have serious differences with Russia on Ukraine, we 
continue to value our dialogue with Moscow over Afghanistan, including 
on discussions with Russia and Central Asia on counternarcotics. China 
will soon host a large regional meeting focused on addressing a number 
of common challenges. Prime Minister Modi of India invited both 
President Karzai and Prime Minister Sharif to join other regional 
leaders at Modi's inaugural, demonstrating his interest in regional 
cooperation.
    Of all these powers, Pakistan probably has the greatest potential 
for influence over Afghanistan's future evolution, for better or worse. 
In the past, Pakistan has projected influence into Afghanistan via its 
toleration of, and even support for, Afghan militants. The growth of an 
indigenous militant threat to Pakistan's own constitutional order, in 
the form of the Pakistani Taliban or TTP, and the many links between 
the Afghan and Pakistani Taliban, along with the several other militant 
and terrorist groups active there, have made this an increasingly 
costly and ultimately unsustainable strategy. After an extended effort 
to negotiate with the TTP, Prime Minister Sharif has ordered a major 
military offensive designed, we are told, to clear all militants, 
foreign and domestic, out of their major stronghold in North 
Waziristan. In the short term this offensive will present challenges to 
Afghanistan, as innocent civilian refugees, along with Afghan, 
Pakistani, and other foreign militants flee across the border. In the 
longer term, however, if the Pakistani authorities deliver on their 
promise to deny the use of their territory to all militant groups, 
foreign as well as domestic, this effort will significantly enhance 
security in both Pakistan and Afghanistan.
    In 2001 parts of Kabul looked like Berlin at the end of the Second 
World War. In December of that year, when I reopened the American 
Embassy as the first post 9/11 U.S. special envoy for Afghanistan, 
Kabul was a ruined city, ravaged by decades of invasion, civil war, and 
Taliban autocracy; the capital of a country that had no police force, 
no military, no ministries, no judicial system, few schools. Societies 
take a long time to recover from historical trauma of this magnitude, 
but only 13 years later, Afghanistan has millions of children in 
school, an increasingly effective defense and police force, a 
professional independent media, and a functioning political system. 
These institutions, working together, were able to carry out two 
nationwide elections in the space of 2 months, despite bad weather, an 
active insurgency, and a short tradition of democratic practice. The 
Afghans have repeatedly demonstrated their desire for democracy and 
rule of law and to interact with other countries in the region and the 
world as a sovereign nation with its own traditions.
    We have read for years about continued prevalence of violence, high 
levels of corruption, limited governmental capacity and misdirected 
foreign assistance. All of this is undoubtedly true. Yet despite these 
genuine deficiencies longevity in Afghanistan has risen by 20 years 
since 2001, the largest such leap in life expectancy that any society 
has ever achieved over such a short period. Twice as many Afghans can 
read and write today as could in 2001, and twice as many again will be 
able to do so 10 years from now. Poverty and corruption have replaced 
insecurity as the prime voter concerns in much of the country. Yet 
despite these real and well-grounded concerns, polling continually 
reveals that most Afghans see their lives improving, have a positive 
assessment of their government, are confident in the capacity of their 
army and police and are optimistic about their future.
    This optimism will be tested in the years ahead. As NATO forces 
continue to draw down economic growth will slow and the Afghan security 
forces will be repeatedly challenged. The Afghans, other regional 
governments, our NATO partners and the international donor community 
will all be looking to United States to continue to lead in supporting 
the continued consolidation and extension of the dramatic changes that 
have already taken place in that country. Our ability to do so will 
depend upon the willingness of Congress to continue to respond 
positively to this and future administrations' requests for security 
and economic assistance funding, even as the overall costs of our 
engagement in Afghanistan will continue to decline rapidly.

    The Chairman. I am sure there will be questions where you 
will be able to fill out anything you have not done.
    Ms. Magsamen.

  STATEMENT OF KELLY E. MAGSAMEN, ACTING ASSISTANT SECRETARY, 
  ASIAN AND PACIFIC SECURITY AFFAIRS, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Ms. Magsamen. Thank you. I will try to keep this short.
    Chairman Menendez, Senator Corker, and distinguished 
members of the committee, thank you for the opportunity to 
testify today on the United States mission in Afghanistan 
beyond 2014 and the regional implications of our transition.
    First, I would like to thank our men and women of the Armed 
Forces who have fought and served in Afghanistan, as well as 
our incredibly capable diplomats like Ambassador Dobbins and 
other civilians from across the interagency. We have not 
forgotten what brought us to Afghanistan more than a decade 
ago, and our core objectives are clear: disrupt threats posed 
by al-Qaeda, support Afghan security forces, and give the 
Afghan people the opportunity to succeed as they stand on their 
own.
    Since 2001, our forces have placed constant pressure on al-
Qaeda and other terrorist networks operating in the region. 
United States and NATO forces have also helped develop and 
enable the Afghan National Security Forces to provide security 
for their own country.
    Since assuming the lead for security across Afghanistan 
exactly 1 year ago today, the ANSF has proven resilient and 
capable. With minimal coalition assistance, Afghan forces now 
plan and execute nearly all combat operations, continue to 
improve their capacity to execute large, joint combat 
operations, and demonstrate tactical superiority over 
insurgents.
    Most recently, the ANSF demonstrated their capability to 
provide effective security for the Afghan people during both 
the first and the second rounds of the Presidential elections. 
The Afghan Government and its security forces worked closely to 
prepare for the first democratic transfer of power in 
Afghanistan's history. Twice this year, Afghans have defied the 
Taliban-led insurgency when they turned out in large numbers to 
cast their votes. The performance of the ANSF during these two 
rounds is a major milestone in our efforts to develop a capable 
force that is accountable to the Afghan people.
    The ongoing drawdown of U.S. and NATO forces reflects the 
progress that the ANSF has made. Yet, much work remains to 
develop a self-sufficient ANSF. Throughout the end of this 
year, U.S. forces will continue to provide the time and space 
for the Afghan Government and security forces to increase their 
capacity. By next year, Afghans will be fully responsible for 
securing their country, and we will be in an advisory role 
pending the conclusion of a United States-Afghanistan bilateral 
security agreement and a NATO-Afghanistan status of forces 
agreement.
    As President Obama announced on May 27, the United States 
intends to maintain a limited military presence of 9,800 forces 
in Afghanistan in 2015 and provide the bulk of forces for the 
follow-on NATO mission known as Resolute Support. A post-2014 
U.S. military presence will have two objectives: training, 
advising, and assisting the Afghan National Security Forces as 
part of the NATO-led Resolute Support mission, and supporting 
counterterrorism operations against the remnants of al-Qaeda.
    In 2015, the NATO-led train, advise, and assist mission 
will focus at the corps level and above to develop further 
capabilities in aviation, intelligence, and special operations, 
as well as the capacity of Afghan security ministries. As part 
of the NATO mission, the United States will also focus on 
ensuring effective use of future U.S. assistance to the ANSF. 
By the end of next year, the U.S. force presence should be 
reduced by roughly half and consolidated in Kabul and Bagram.
    In 2016, our focus will be on advising at the ministerial 
level to ensure contracting, procurement, and financial 
management practices. By the end of 2016, the U.S. military 
forces would be limited to a Kabul-based presence with a strong 
security assistance component to assist in sustaining the ANSF. 
A security cooperation office in Afghanistan will serve as the 
mechanism for continued security cooperation with the Afghan 
Government in areas of mutual interest, much as we do around 
the world. It will also allow us to maintain an enduring 
relationship with the ANSF and continue to build their 
capacity.
    Beyond the drawdown of forces in Afghanistan, the United 
States will continue to have, as the Ambassador reflected, 
national security interests in South and Central Asia. These 
include preventing terrorist groups from threatening our 
homeland, our citizens, and our interests, addressing terrorism 
and extremism in Pakistan, and advancing a stable, secure, and 
independent Central Asia. To pursue these interests, we will 
continue to conduct security cooperation with these countries 
in the region.
    In closing, the steps that United States forces and our 
NATO partners have taken in Afghanistan, as well as our efforts 
to build partner capacity in the region, will help set the 
conditions for regional security in the years ahead, even as 
challenges remain. Achieving improved regional stability will 
require sustained U.S. leadership and engagement.
    I would like to thank this committee for its leadership and 
support of the United States military mission in Afghanistan, 
as well as your continuing support of our men and women in 
uniform and our diplomats and other civilians. I look forward 
to your questions.
    [The prepared statement of Ms. Magsamen follows:]

                Prepared Statement of Kelly E. Magsamen

    Chairman Menendez, Senator Corker, distinguished members of the 
committee, thank you for the opportunity to testify on the U.S. mission 
in Afghanistan beyond 2014 and the regional security implications of 
our transition. It is also an honor to speak alongside Ambassador 
Dobbins.
    First, I would like to thank the men and women of our armed forces 
who have fought and served in Afghanistan, as well as our incredibly 
capable diplomats and other civilians from across the interagency. We 
have not forgotten what brought us to Afghanistan more than a decade 
ago. Since 2001, our forces have placed constant pressure on al-Qaeda 
and other terrorist networks operating in the region and have helped 
develop and enable the Afghan National Security Forces (ANSF) to 
provide security for their country. Our core objectives in Afghanistan 
are clear: disrupt threats posed by al-Qaeda; support Afghan security 
forces; and give the Afghan people the opportunity to succeed as they 
stand on their own.
    Since assuming the lead responsibility for security across the 
country 1 year ago, the ANSF--composed of 336,306 personnel--are now 
successfully providing security for the people of Afghanistan. Afghan 
forces plan and execute nearly all combat operations, and continue to 
improve their capacity to execute large, joint combat operations across 
the country with minimal coalition assistance. The ANSF have proven 
resilient and capable, demonstrating tactical superiority over the 
insurgents during the last fighting season and already during this 
fighting season.
    The ANSF most recently demonstrated their ability to provide 
effective security for the Afghan people in the first and second rounds 
of their Presidential elections. The Afghan Government and its security 
forces have worked closely--on an unprecedented level--to prepare for 
the first democratic transfer of power in Afghanistan's history. Twice 
this year, Afghans have defied the Taliban-led insurgency and turned 
out in large numbers to vote for their democratic future, including a 
turnout of nearly 7 million voters in the first round. ANSF performance 
during these two rounds is a major milestone in our efforts to develop 
a capable force that is credible in the eyes of the Afghan people.
    Although the drawdown of U.S. and NATO forces reflects the progress 
that the ANSF have made, there is still much work to do to develop ANSF 
capacity toward sustainment. Through the end of this year, our mission 
will continue to provide the time and space for the Afghan Government 
and security forces to increase their capacity and assume full 
responsibility for Afghanistan's security. Starting next year, Afghans 
will be fully responsible for securing their country and we will be in 
an advisory role.
    The Department of Defense is committed to a responsible drawdown of 
U.S. forces and an appropriately resourced follow-on NATO mission in 
Afghanistan. As President Obama announced on May 27, the United States 
intends to maintain a military presence of 9,800 forces in Afghanistan 
in early 2015, and provide the bulk of forces for the follow-on NATO 
mission, known as Resolute Support. A continued U.S. and NATO military 
presence is conditioned upon the conclusion of the U.S.-Afghanistan 
Bilateral Security Agreement and NATO-Afghanistan Status of Forces 
Agreement. The post-2014 NATO mission will advise the continued 
development of security activities to the Afghans as the international 
community seeks to normalize its relationship with Afghanistan. NATO is 
expected to approve the Resolute Support operational plan at the NATO 
Foreign Ministerial on June 24, and will convene a force generation 
conference later this summer to align national contributions with 
operational requirements.
    As Secretary Hagel stated after President Obama's force level 
announcement, our enduring presence ``will help ensure that al-Qaeda 
cannot reconstitute itself in Afghanistan, and it will help us sustain 
the significant progress we have made in training and equipping the 
Afghan National Security Forces.'' To that end, the post-2014 U.S. 
military presence will have two objectives: training, advising, and 
assisting Afghan forces as part of the NATO-led Resolute Support 
mission and supporting counterterrorism operations against the remnants 
of al-Qaeda.
    The NATO-led train, advise, and assist mission will be directed at 
the corps-level and above. As part of this mission, the United States 
will complement Afghan security efforts by closing institutional 
capability gaps, sustaining major equipment, and ensuring effective use 
of future U.S. assistance to the ANSF. The advisory mission will 
continue to build ministerial capacity and fielded force capabilities 
as the ANSF mature to become a professional and sustainable security 
force. Advisors will assist the Afghan security ministries, army corps, 
and police zones with performing tasks such as planning, programming, 
budgeting, acquisition, and human resource management so they can 
provide the required support to tactical units. For the fielded force, 
advisors will address gaps in aviation, intelligence, and special 
operations, as well as logistics, medical, and counterimprovised 
explosive device (IED) capabilities.
    By the end of 2015, the U.S. force presence should be reduced to 
roughly half the levels from the beginning of that year and 
consolidated in Kabul and at Bagram Airfield. In 2016, a continued 
advisory effort would be embedded at the ministerial/institutional 
level to address anticipated shortfalls in financial management, 
procurement, and contracting. By the end of 2016, the U.S. military 
would be limited to a Kabul-based presence, with a strong security 
assistance component to sustain the ANSF. Beyond 2016, a Security 
Cooperation Office in Afghanistan would serve as the basis for 
continued strategic cooperation with the Afghan Government in areas of 
mutual interest, including advancing regional security and cooperation. 
It would also allow us to maintain an enduring relationship with the 
ANSF, build partner capacity, and preserve the access and influence 
necessary to help ensure stability in Afghanistan and the region. We 
will use the coming years to continue building a strong relationship 
with Afghanistan through security assistance-related activities, such 
as military education and training exercises.
    Sustained ANSF and coalition efforts have prevented al-Qaeda's use 
of Afghanistan as a platform for terrorism. These efforts have forced 
al-Qaeda to focus on survival rather than on operations against the 
West. Despite our success in degrading core al-Qaeda, remnants remain 
in the border region and coordinate with other extremist organizations, 
such as the Haqqani Network, Tehrik-e Taliban Pakistan, and Lashkar-e-
Taiba. Beyond 2014, U.S. forces will remain focused on denying safe 
haven to al-Qaeda and keeping pressure on the extremist network to 
limit the operational ability of transnational and foreign military 
groups inside Afghanistan.
    The United States will continue to have national security interests 
in South and Central Asia beyond the drawdown of our forces in 
Afghanistan. These include preventing terrorist groups from threatening 
our homeland, U.S. interests, and citizens; addressing terrorism and 
extremism in Pakistan; and advancing a stable, secure, and independent 
Central Asia. To pursue these interests, we will continue to conduct 
security cooperation with countries in the region to help promote 
strategic stability on the subcontinent.
    Security cooperation with Pakistan has helped facilitate 
counterinsurgency operations that constrain al-Qaeda and militant 
groups like the Pakistani Taliban, which threaten the United States, 
Pakistan, and other countries in the region. For example, Coalition 
Support Funds have helped the Pakistan military maintain more than 
125,000 troops in the Federally Administered Tribal Areas (FATA), and 
security assistance--to include equipment such as night vision devices 
and radios--has improved Pakistan's counterinsurgency and 
counterterrorism capabilities. The delivery of upgraded F-16s to 
Pakistan led to the increased effectiveness of their air operations, 
especially in night strikes that limit militant freedom of movement.
    U.S. support and engagement have also contributed to 
counterterrorism cooperation against al-Qaeda and to Pakistan's efforts 
to disrupt IED networks responsible for attacks in Afghanistan and 
Pakistan. Pakistan's counterinsurgency, counterterrorism, and counter-
IED efforts will remain critical as we continue the drawdown in 
Afghanistan. U.S. support to Pakistan also supplements its efforts to 
improve internal stability, which is vital for improved stability in 
the region. It is therefore essential that we maintain defense 
cooperation with Pakistan at close to current levels through 2016.
    The Central Asian states are also an important facet of the 
regional security landscape. In addition to the assistance these 
nations provide directly to Afghanistan through trade, building 
infrastructure, supplying electricity, and education resources, Central 
Asia has steadily supported U.S. efforts in Afghanistan by allowing the 
transit of military materiel and personnel through their territories as 
part of the Northern Distribution Network. Since the independence of 
Central Asian nations in 1991, the United States has supported the 
ability of these states to maintain their sovereignty and independence 
by building their capability to secure their borders, counter 
narcotraffickers and extremists, and better manage their defense and 
security institutions. The United States will continue to pursue these 
interests during and following the drawdown of U.S. forces in 
Afghanistan.
    In addition to our bilateral security cooperation efforts, the 
United States will continue to play a mediation role in the region. 
Cross-border militant attacks remain a challenge to maintaining 
positive relations between Afghanistan and Pakistan. In addition to 
attacks by Pakistan-based militants in Afghanistan, we are growing more 
concerned about Afghanistan-based militants launching attacks in 
Pakistan. These attacks have contributed to an uptick in border clashes 
between the two countries. In recent instances, Pakistan attempted to 
de-escalate clashes using the procedures put in place by Islamabad and 
Kabul, with facilitation from ISAF and the Office of Defense 
Representative-Pakistan. Maintaining a strong relationship with the 
Pakistan military and the ANSF will be necessary to mitigate future 
flareups. We intend to press both Islamabad and Kabul for greater 
cooperative measures after the new Afghan administration takes office. 
In addition, an improved relationship between Pakistan and India is 
essential to regional stability. The recent engagement between 
Pakistani Prime Minister Nawaz Sharif and newly elected Indian Prime 
Minister Narendra Modi is cause for cautious optimism. Recognizing the 
important role the United States has to play in terms of regional 
engagement, we hold trilateral dialogues with Afghanistan and Pakistan, 
and with Afghanistan and India. These meetings are held in addition to 
formal and informal bilateral engagements with each of these countries 
on issues relating to regional security.
    In sum, the steps that U.S. forces and our NATO partners have taken 
in Afghanistan, as well as efforts to build partner capacity in the 
region, will help set the conditions for regional security in the years 
ahead. Achieving improved regional stability will require sustained 
U.S. leadership and engagement in the region.
    I would like to thank this committee for its leadership and support 
of the U.S. military mission in Afghanistan, as well as for your 
continuing support of our men and women in uniform and of our diplomats 
and other civilians. I look forward to answering your questions.

    The Chairman. Well, thank you both for your testimony.
    Ambassador Dobbins, let me ask you. As I said in my opening 
statement, Afghanistan is not Iraq, but the deterioration of 
the security environment in the latter raises questions about 
the announced plans to withdraw United States combat troops by 
the end of 2016. I am concerned that the timeline emboldens 
militants in the country who will simply wait out the departure 
of U.S. forces.
    So can you give the committee a sense of the deliberations 
which led to the decision to eliminate the operational and 
support role for U.S. troops by 2016, and what are the 
opportunity costs to not maintaining a more significant 
military presence there beyond 2016?
    Ambassador Dobbins. I think the main lines of analysis were 
the pace at which the Afghan Armed Forces could repair or 
address the continuing deficiencies. I think Kelly can probably 
answer this in more detail. But the general discussion said 
that they are capable of independent tactical and operational 
actions, but that some of the higher level capabilities still 
need further development. These would include program 
budgeting, personnel management, maintenance, sustainability of 
the force, those kinds of higher level management issues at the 
ministerial and corps level. And given that the improvements 
that have been made in their tactical and operational 
capabilities over the last several years, these should be 
fixable within the timeframe that has been set out.
    The Chairman. Well, let me ask you, Ms. Magsamen. Given the 
lack of capacity in logistics and air support, if we think that 
they have made so much progress that what is left to be 
finished can be done in 2 years, how do you think they will 
perform without the capacity in logistics and air support after 
2016?
    Ms. Magsamen. Let me say a quick thing on the timeline. I 
think when we were deliberating on this, the timeline is in our 
view appropriate to where the ANSF is currently and where we 
see their shortfalls and how we are going to spend the next 2 
years addressing those shortfalls. And as I said earlier in my 
opening remarks, they are performing quite well at the tactical 
level and operational level. They are performing more complex 
joint operations. They are doing 99 percent of conventional 
operations right now, about 98 percent of special operations.
    The Chairman. No. I appreciate that. I heard you. I listen 
to testimony when it is given here.
    But I want to get to my point. Looking at the ANSF now is 
one thing. Looking at the ANSF 2 years from now is another. And 
the question is without air support and logistical abilities, 
how do you think they will be able to perform.
    Ms. Magsamen. I cannot really speculate how they are going 
to perform in 2016, but what I can tell you is that air 
support----
    The Chairman. Well, but you have made that determination by 
deciding that you are going to withdraw by 2016. So someone 
made a determination that you can judge because otherwise you 
could not withdraw by 2016.
    Ms. Magsamen. Yes, sir. In our judgment, the areas we are 
planning to focus on over the next 2 years include aviation, 
they include intelligence, they include logistics and 
sustainment like I said. These are going to be the areas of 
focus that General Dunford and ISAF are going to be focusing on 
post-2014. As you know, aviation is a long-term and complex set 
of programs, but this is going to be an area of focus for us. 
We are going to have 9,800 troops by the end of the year. They 
are going to be there. This is not like we are dropping off a 
cliff at the end of this year. We are going to continue to do 
training and advising and assisting in these areas. We do think 
they are capable, and we do think they can get there. It is 
complex. It is going to be a long-term effort with the ANSF. It 
is going to require a long-term international commitment, but 
we are confident that the ANSF is making progress. I think they 
have demonstrated that progress over the last two rounds of 
elections. They are demonstrating it every day through all the 
operations that they are conducting. And, yes, there are 
shortfalls and we are cognizant of those shortfalls, but we are 
working to fill them.
    The Chairman. There is a difference. And I do applaud them 
for what they did during the elections. But there is a 
difference between that and a full-fledged frontal attack by 
those who may be emboldened to thinking that the United States 
will not be there. And I hope to God that they are capable of 
doing so because after so many American lives and national 
treasure, I would hate for us to see losses.
    I did not vote for the war in Iraq because I think that was 
a colossal mistake, probably one of the most consequential 
decisions that was ever made in the recent history of the 
United States. It has cost us trillions of dollars and 
thousands of lives. And so as far as I am concerned, that was a 
colossal mistake.
    But I did vote for Afghanistan. That is where Bin Laden 
was. That is where al-Qaeda was. That is where the perpetrators 
of September 11 were. Those towers were where 700 of my 
citizens in New Jersey were taken and 3,000 Americans were 
taken. So I am not about to just walk away, although I 
certainly am far from a warmonger by any stretch of the 
imagination. But I am concerned that we are not doing what will 
be necessary in order to achieve the long-term benefits.
    Let me ask you about the region. As I traveled through the 
region and most recently in the gulf, all I heard is: Are you 
going to stay? And then we had the announcement. Unfortunately, 
that announcement was while I was in the gulf and I did not 
know about it. And the reality is that there is significant 
concern.
    So, Ambassador, talk to me about the regional implications 
and what we are looking at in terms of the region because when 
I was in Pakistan, they wanted to know if we were going to 
stay, and they were making judgments based on that. And 
obviously they are going to make judgments now. I see that they 
launched some efforts in certain parts of Pakistan and along 
the region there that is contiguous with Afghanistan, but I 
doubt they are going to do very much to the Haqqani Network as 
part of that. So talk to me about the regional consequences of 
the decision as well.
    Ambassador Dobbins. Well, I would say most regional powers 
are relieved that we are not leaving right away. They are 
relieved that the zero option is no longer considered probable. 
They are relieved that we will have a significant presence 
there next year. And most of them would like us to have it 
there longer. In fact, probably most of them would like us to 
stay indefinitely.
    There are exceptions to that and significant exceptions. I 
would guess that Russia, China, and Iran are all pleased that 
there is an end date to our presence. The Russians and the 
Chinese I think both are glad we are staying for a while, but 
they are glad it is only a relatively brief while.
    As to what we need to do, we do need to capitalize on what 
degree of consensus there is. We need to continue to work the 
trade and regional economic integration piece which both aids 
Afghan development but even more importantly gives everybody in 
the region a stake in Afghan stability as their own prosperity 
depends in growing measure on trade links that include 
Afghanistan. And so this is an important area that we, along 
with our South and Central Asian Bureau, continue to work on 
very actively.
    We need to continue to engage the major players in the 
region, India, Pakistan, China, Russia, bilaterally as well as 
in the several multilateral forums which exist to talk about at 
the moment the Afghan elections, to talk about the transition, 
to talk about how some of those countries can continue to 
assist both the Afghan security forces and Afghan stability 
more generally. We have not, in recent years, talked 
bilaterally to the Iranians, but they are included in a number 
of the multilateral forums that we engage in consultations in 
as well.
    I think you accurately perceive the concerns of the 
regional powers, and as I said, from their standpoint what they 
got was I think they appreciated the greater clarity about our 
intentions for next year. I have not heard complaints about 
next year, but as you have heard, some of them are concerned 
about----
    The Chairman. I think all of us who care about the 
commitment we have made here are glad to see this. I never 
believed the zero option was real except if we did not get a 
security agreement. I think it would have been disastrous. So I 
guess they are relieved by having the affirmation that we are 
not leaving, but I do not know how relieved they are from my 
conversations about the declared time period in which we are 
going to leave.
    There are a lot of questions here that I would like to ask 
you about. Sustainability of projects is one. If you want more 
money, we are going to have to see the sustainability of 
projects at the end of the day. And also I have questions about 
the post-election process and what we are doing. But there are 
a lot of members here. So let me turn to Senator Corker.
    Senator Corker. Mr. Chairman, I just want to say that on 
the sustainability issue, I am with you. I got to tell you I 
think most of us have been shocked by the massive amount of 
nation-building that had no relevance to security, and I do 
hope we will go through those with a fine-tooth comb. And I 
hope the State Department will bring us to understand the 
purpose of those and how they will be sustained.
    But back to the number of security forces. I know this was 
a long and contorted decision, one that could have been made 
some time ago, as soon as the Presidential candidates, all of 
them, said they were going to sign the agreement. But the 
decision process was contorted. There were people, were there 
not, Mr. Dobbins, within the administration pushing for zero? 
Is that true?
    Ambassador Dobbins. I do not recall anybody explicitly 
pushing for it in any meeting I attended. So formally not. And 
I attended virtually every meeting.
    Senator Corker. People have predicted what is happening in 
Iraq. Many people on the dais have been talking about what 
would happen in Iraq if we did what we did with a no Syria 
policy, with leaving the way that we left, and with having a 
Prime Minister that is not governing his country in the 
appropriate way. So even though people knew it was going to 
happen and even though you saw indications of what was 
happening, have the recent events in Iraq in any way caused 
people to reassess declaring the zero option in 2016 for 
Afghanistan?
    Ambassador Dobbins. You know, as Chairman Menendez said, 
Afghanistan is not Iraq. I quite understand the analogy you are 
making which is, to a degree, a fair analogy, that if you leave 
too early, most of your investment can be lost as a result. I 
am not arguing against that. I am arguing that in Afghanistan 
we are doing just the opposite of that.
    And the situations are very different. In Iraq, the people 
did not want us and not a single Iraqi politician was prepared 
to advocate our staying. In Afghanistan, the people 
overwhelmingly want us to stay, and every single contender in 
the Presidential election said they would sign the BSA. In 
Iraq, they could get along without us, at least temporarily 
because they had plenty of money. In Afghanistan, they cannot 
possibly get along without us.
    Senator Corker. Well, just since you said that, in a sense 
they want us there, and I agree with that analogy although I am 
not sure we could not have still worked an arrangement in Iraq 
that is different than what it is and what it has been. I think 
you would agree with that.
    How did we decide 2015, 2016? In other words, yes, the 
country welcomes us. Yes, it is the apparatus which we are 
using for intelligence. Yes, it matters a lot to the region. So 
since both the Presidential candidates that are in the lead 
have said stay, why is it we announced that we were going to 
leave in 2016 and have the specific numbers in each year?
    Ambassador Dobbins. You know, I do not think the decision 
in Afghanistan was made in a vacuum. I wrote six or seven books 
on Afghanistan, Iraq, and on post-conflict stabilization during 
the 10 years I was outside the Government. And anybody who has 
read those knows that my view is more is better. More money, 
more time, more manpower gets you better results.
    But resources are finite. All I have to worry about is 
Afghanistan and Pakistan. But the President and you have to 
worry about every other place in the world where U.S. 
resources, U.S. money, U.S. troops, and the time and attention 
of high-level policymakers are needed. And it was against that 
background of a metastasizing threat from al-Qaeda and similar 
groups, a spread of that threat to a number of other societies, 
the fragmentation that is occurring in a lot of other countries 
which are now in a lot worse shape than Afghanistan is that the 
decision was made to take a calculated risk. We thought 2 years 
would be enough. And on that basis, the President made a 
decision because there are a lot of other claims on those 
resources.
    Senator Corker. Well, since you attended all those meetings 
and you heard all the tongue and cheek comments that take place 
in these kind of meetings, is your sense that this was 
basically a throwaway comment for public consumption and if 
things on the ground deteriorated, that the President would 
actually be very open to ensuring that the gains that have been 
so hard-fought are kept in place?
    Ambassador Dobbins. No, I do not think the President is 
disposed to review this decision.
    Senator Corker. So this is an absolute, regardless of 
conditions on the ground, you all absolutely made a decision 
that this is the way it is going to be.
    Ambassador Dobbins. I believe the President has made a 
decision which he intends to keep, which carries us through 
2016. Now, I cannot speak for what would happen if there were 
massive diversions from expectations, but I do not think the 
President is disposed at present to review this decision.
    Senator Corker. It is amazing when we talk to people within 
the administration that know things like this and are pretty 
tuned in. They say, hey, guys, do not worry about this. This is 
just a plan. We are going to reassess. But you are telling me 
as a special envoy, this is concrete. Right now, this is not 
just a plan, but this is the way it is going to be.
    Ambassador Dobbins. I think this reflects the President's 
intentions.
    Senator Corker. Let me ask you this question. The 
leadership there that is on the ground--I think all of us know 
both of the candidates that are in the finals and have had, I 
am sure, multiple meetings with each of them. Do you view 
either one of the winners as an improvement over the leadership 
that we now have in Afghanistan? It is not much of a bar I 
know.
    Ambassador Dobbins. I think President Karzai's leadership 
will probably have to be evaluated in hindsight over the entire 
10 or 12 years of his presence there. I was instrumental in his 
initial selection to run the provisional government. I think he 
has made a major contribution in putting Afghanistan on a path 
toward constitutionalism and democracy. I think he has done a 
remarkably good job of bringing together the various ethnic and 
sectarian and linguistic and religious groups and overcoming 
those kinds of obstacles. He has done this through a process of 
distributing patronage, which has the side effect of increasing 
corruption but also has the side effect in a country that has 
very weak institutions of creating constituencies in every 
single ethnic and religious and linguistic group in the country 
for the central government, for constitutional order. And that 
is a significant contribution.
    Now, in the last couple of years, our relations have 
deteriorated seriously. I think either one of the candidates 
will devote significant effort to improving that relationship. 
I believe there will be responsiveness here to that, and I 
believe that, therefore, the relationship will significantly 
improve.
    I would also say that President Karzai seems to be playing 
a balanced and constructive effort to try to bring this 
electoral process to a conclusion that everybody in Afghanistan 
can accept. We are not there yet. It is going to be a difficult 
several weeks I think until we get there. And I think his 
leadership is going to be continually important in that regard 
as well.
    Senator Corker. If I could, Ms. Magsamen, this is my final 
question. I know you keep throwing out the security office--or 
you have a couple times in your answers to questions and your 
presentation--at the Embassy. And it is almost as if to placate 
people who are concerned--or at least that is the way I hear 
it--that are concerned about this absolute drawdown. Could you 
tell us just a little bit about what the security office within 
the walls of the Embassy will do relative to making the country 
and also the region more secure?
    Ms. Magsamen. Thank you, Senator, for the question. I think 
it is an important one because, as you know, around the world 
we have this kind of security cooperation office. We manage a 
ton of very complex security and defense relationships with 
partners like Jordan, with partners like Colombia. And, sir, 
you can pick your different version. They all vary in how they 
operate. We will tailor the office of security cooperation in 
Afghanistan to the Afghans' needs. It will afford us an 
opportunity to provide continued advice to the ANSF and 
assistance and execute security assistance through that office 
and process it and help work with the Afghans in terms of 
improving their programming and planning and budgeting.
    So the OSCs can perform a variety of functions. It is not 
purely just a throughput for moneys. It is actually an 
opportunity for us to engage the Afghans to maintain channels 
of influence frankly with the ANSF through the Embassy as well. 
So these offices of security cooperation around the world can 
perform very complex functions.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you both 
for being here.
    Ambassador Dobbins, you talked about the Iraqis never 
wanting us to stay and the Afghans not wanting us to leave.
    Ambassador Dobbins. Yes.
    Senator Shaheen. What kind of an impact is what is 
happening currently in Iraq having in Afghanistan?
    Ambassador Dobbins. You know, I have not seen any 
reverberations within Afghanistan to date. I am not sure the 
Afghans themselves, at least the man on the street, see much of 
a relationship, and they are pretty focused on their own 
problems and their own political process at the moment.
    Senator Shaheen. So is it having any impact on the 
potential for reconciliation negotiations to occur between the 
Taliban and the new leadership in Afghanistan once it is 
decided?
    Ambassador Dobbins. I think there is a prospect for 
renewed--and ``renewed'' may be too strong a term because there 
was not much of a process before, but for more meaningful 
efforts at reconciliation once a new government takes office. 
And it will depend on, first of all, the quality of the 
electoral process and whether it is divisive in the country or 
whether it unites the country behind a successor President.
    Secondly, I think the success of Afghan security forces 
during the electoral process will give the Taliban pause.
    Thirdly, if we complete the drawdown and if at the end of 
the year, Afghan security forces have continued to hold their 
ground and the Taliban is not making ground, I think all of 
those factors will go into their decisionmaking. They tend to 
fight during the spring and summer and talk among themselves 
during the fall and winter, and I would anticipate that that 
process of talking among themselves may well yield differences. 
Both of the Presidential candidates have indicated a 
willingness to engage in a reconciliation process and 
negotiation with the Taliban. The Taliban have clearly not been 
willing to talk to Karzai in the short term, but I think there 
is some prospect that they will be willing to do so as the 
result of all of those factors.
    Senator Shaheen. And are there any particular leverage 
points that we think the Afghan Government is going to have in 
potential negotiations with the Taliban? I hear you say that if 
the security forces maintain their ability to maintain security 
in the country, that that provides leverage. But there has been 
not a lot. There have been some reports that the Taliban are 
just waiting until we withdraw our troops and then they intend 
to reengage in a way that would make it difficult for the 
security forces to continue to maintain the gains that they 
have achieved.
    Ambassador Dobbins. I do not think we have any intelligence 
which would support the view that the Taliban has been pulling 
its punches over the last year and a half. I think insofar as 
we have an assessment, it has been that they have continued to 
try to hurt us, to make our withdrawal as difficult and painful 
as possible, to disrupt the elections, to disrupt the Afghan 
security forces. And so far, they have largely failed in that 
regard.
    Now, in terms of points of leverage, we have already talked 
about the Afghan points of leverage, and I think the other main 
source of leverage on them is going to be, for better or worse, 
the behavior of Pakistan.
    Senator Shaheen. One of the real concerns I think that 
exists once we withdraw is what happens to some of the gains 
that have occurred in Afghanistan, particularly for women. And 
I wonder if you can speak to what we anticipate might happen 
there.
    Ambassador Dobbins. Well, I think there have been some 
remarkable gains that are going to be difficult to roll back. 
You have had a 20-year increase in longevity, the largest such 
increase any society in the world has sustained in such a short 
period in human history. Twice as many Afghans can read and 
write today as could read and write a decade ago. That is not 
going to go away. And if the kids stay in school for another 10 
years, twice as many Afghans again will read and write 10 years 
from now as can read and write today.
    You have had massive urbanization. People have moved away 
from their tribal, ethnic, and familial roots into more 
cosmopolitan urban centers.
    You have had a massive increase in communications, 75 TV 
stations broadcasting, largely national, not narrowly sectarian 
news and commentary. You have had cell phone coverage over 90 
percent of the country.
    And in terms of attitudes, not only are women participating 
in elections, not only are women going in schools in massive 
numbers, but there have been changes in attitudes registered in 
polling so that now most Afghans believe women should be 
educated. Most Afghans believe women should vote. The get-out-
the-vote among women in this last election was assisted by a 
number of religious leaders who are arguing that women should 
be allowed to and encouraged to vote. Those are changes that 
will not be reversed overnight.
    Now, if the Taliban overruns the country and takes control 
again, I do not even think they would be able to bring the 
country back to 2001. But I agree that it would be a 
significant reversal of what we have achieved, and that is why 
we are going to continue to cooperate with the Afghan 
Government and the Afghan people to prevent it.
    Senator Shaheen. Ms. Magsamen, I am not pronouncing your 
last name correctly.
    Ms. Magsamen. It is Magsamen.
    Senator Shaheen. Can you talk about the prospects for our 
drawdown of troops, what that might do to extremist movements 
in Pakistan? What is the impact going to be there? And have we 
seen any change in how the Haqqani Network, some of the 
extremist groups view us after the Bergdahl prisoner exchange?
    Ms. Magsamen. In terms of the impact on Pakistan, I think 
we are getting ready to enter into a pretty critical period of 
transition, as the Ambassador talked about. And as I think 
everybody on this committee understands, security in 
Afghanistan is contingent on security in Pakistan and vice 
versa. This has been an area of intense focus, especially for 
General Dunford and General Austin, who have been engaging both 
the Pakistanis and the Afghans in particular on the importance 
of developing mechanisms to manage cross-border escalation 
among these groups.
    I think the key going forward here is that we are going to 
continue to engage leaders on both sides about the importance 
of managing and addressing the situation with extremists in the 
border region and putting into place mechanisms of cooperation 
and transparency, communication to manage border escalations. 
We recently had a few instances, as you probably know, on this. 
Like I said, the important part is putting in place these 
mechanisms. We have had sort of on and off bipartite military-
to-military engagement between Afghanistan and Pakistan, and 
basically I think the next few years, it is going to be 
incumbent upon the Afghans and the Pakistanis, with our 
encouragement, to continue to keep talking and sharing 
information.
    In terms of the steps that you raise, Pakistan I think--
they are an important CT partner for us. I think they are on a 
better trajectory in terms of the steps that they are taking, 
as you can see from the North Waziristan operations that are 
underway right now. I think that is an important step that 
Senator Corker pointed to earlier. There are places where our 
interests converge, and we work to cooperate with them. There 
are places where they diverge, and we engage them on those 
places as well. And we make very clear to the Pakistanis in 
particular our concerns about the Haqqani threat. We make that 
very clear and very direct across the interagency between State 
and the Department of Defense.
    So we are watching closely what the Pakistanis are doing. 
They have taken steps. They are making gains. The Pakistanis 
have over 125,000 troops in the FATA. They are increasingly 
gaining control over territory. But at the end of the day, the 
situation in the FATA is really a long-term governance 
challenge for Pakistan, in addition to a security challenge. So 
we are encouraged by some of the steps they are making. Is it 
totally adequate? No, but we do think they are on the right 
trajectory.
    Senator Shaheen. Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. I am going to defer to Senator McCain. He 
has got an event.
    The Chairman. Senator McCain.
    Senator McCain. Thank you.
    Ambassador Dobbins, in late May, former senior Pentagon 
officials and leading counterterrorism analysts testified to 
Congress that the Taliban is on the verge of major resurgence. 
Do you agree with that assessment?
    Ambassador Dobbins. I have not seen any sign of it. I do 
think that our assessment is that as our forces draw down, they 
may be able to gain marginally more territory in rural areas. 
Maybe that is what he was addressing.
    Senator McCain. I am talking about several of them did.
    Ambassador Dobbins. If you are talking about overrunning 
major population centers, we do not see that.
    Senator McCain. You do not see a major resurgence on the 
part of the Taliban.
    Did you personally recommend this drawdown, this date for 
withdrawal?
    Ambassador Dobbins. I am not sure it is appropriate to go 
into specific recommendations. I think you were here when I 
said my clear personal----
    Senator McCain. When people are confirmed, they are asked 
if they would give their personal opinion, and they usually say 
yes and I think you did too. So if you do not want to answer 
it, do not answer it, but that is not what you committed, I 
think, to this committee when you were confirmed.
    Ambassador Dobbins. I think you were here, Senator, when I 
said that my view is on these kinds of situations that more is 
better. More time, more money, more troops, more people yields 
better results. But it has to be made within a broader context. 
Throughout the discussions I and the State Department supported 
General Dunford's recommendations at every point without 
qualification.
    Senator McCain. Do you believe that this decision creates a 
higher or same or lower risk?
    Ambassador Dobbins. Than what?
    Senator McCain. For a resurgence of the Taliban and the----
    Ambassador Dobbins. Senator, I think if we kept 100,000 
troops there, the risk would be lower, but there is absolutely 
no possibility of our doing that. The Congress would not 
support it. The American people would not support it, and we 
have got other commitments. So the question is not----
    Senator McCain. Let me get this right. It is 100,000 troops 
or total withdrawal? No, Ambassador Dobbins, do not tell me 
that please.
    Ambassador Dobbins. I am sorry.
    Senator McCain. What most of us advocated and we are seeing 
this movie in Iraq is that by announcing a complete withdrawal, 
that we encourage the Taliban. They wait for us to leave. And I 
am predicting to you now, as I predicted what happened in Iraq, 
that you will see a resurgence of the Taliban and great damage 
done by the Taliban to the Afghan people. I predicted it in 
Iraq, Ambassador Dobbins, and I am predicting it now in 
Afghanistan because you have sent the signal that do not worry, 
hang on, we are leaving. And so for you to set up this straw 
man, like the President does, 100,000 or nothing, I am saying 
what most military experts that I know is that we needed a 
residual force as we had in South Korea, in Berlin, in Bosnia, 
in Japan. In most every country in which we fought a conflict, 
we left behind a residual force not to keep fighting but to 
stabilize the country.
    Ambassador Dobbins. Well, in Bosnia, we have removed all 
U.S. troops, but we do----
    Senator McCain. Sure, we have a residual force to stabilize 
the country. If you want to go through country by country, you 
want to go after the Korean war where we left 38,000 troops and 
Americans were war-weary then--they were very war-weary, but we 
stabilized what was a corrupt country with a corrupt dictator 
called Syngman Rhee at the time because they needed to make the 
transition to democracy. Now South Korea is a great success. 
Most experts would agree that if we had not left a residual 
force, that would not be the case. You are ignoring the lessons 
of history, sir.
    So I ask again, do you think it is a higher or lower risk, 
the fact that we are pulling everybody out, not whether we are 
leaving 100,000 or not?
    Ambassador Dobbins. I am sorry. I thought the question 
originally was whether the 9,800 is adequate. Your more broad 
question is whether zero or a large Embassy military presence, 
but the absence of an independent military command in 2017 is 
enough.
    You know, I think the answer is it depends. And my original 
testimony went through the four things that I think it mostly 
depends on. As I said, I think the President had to make his 
commitments and decisions with respect to Afghanistan based on 
a variety of other new threats and old threats. In the case of 
Korea, for instance, or Germany where troops remained after the 
stabilization phases, the principal threat continued to be in 
our view Chinese and Russian Communist aggression, and those 
were the----
    Senator McCain. Not the reason why we originally left a 
residual force there, Ambassador. The reason why we originally 
left a residual force in those places was to stabilize the 
country.
    Ambassador Dobbins. Well, it was to continue to defend 
against what we conceived as the principal direct threat to the 
United States.
    Senator McCain. And there is a direct threat to the United 
States of America if the al-Qaeda and ISIS and others gain 
control of that region. Maybe you do not believe that.
    Ambassador Dobbins. Absolutely. No, I agree with that. And 
I think there is a chance that what we are proposing will 
adequately meet that threat.
    Senator McCain. The question is whether a total withdrawal 
and announcement of it encourages the Taliban and increases 
dramatically the risk of the rise of the Taliban and further 
chaos in the country and further death and suffering and 
threats to the United States of America, which is why we went 
into Afghanistan to start with because of al-Qaeda being based 
there. It is a bad decision and we will pay a very heavy price 
for it.
    Mr. Chairman, I have no more questions.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    On any given year over the course of this conflict, total 
foreign assistance has represented an amount approximately 
equal to the GDP; in the last few years, maybe closer to 90 
percent of GDP. That is not a completely fair statistic given 
the fact that only about 50 percent or less of assistance 
actually lands in Afghanistan. And you have seen some pretty 
remarkable growth rates of the economy as well.
    But clearly, inside that country, there is a crippling fear 
that the withdrawal of U.S. forces and the diminution of aid 
that you referenced in your initial testimony is going to have 
a pretty catastrophic effect on the economy.
    So you have made a recommendation that you would like to 
see aid from the Congress increased, but what are the 
conversations that we are having regionally with our allies to 
make sure that the economic support for the country is drawn 
down at a rate that will not lead to catastrophic collapse? And 
are we any closer to realizing some of the potential long-term 
assets that we have heard so much about in the country such as 
the vast mineral deposits that some have posited could lead to 
some pretty significant revenues for the government?
    Ambassador Dobbins. I think the best estimates from the 
World Bank, the IMF, and others is that Afghanistan's growth 
rate will and already has slowed significantly. It has been 
growing at a rate comparable to China's for the last 13 years, 
and that is not going to continue. I think they do anticipate 
that it will continue to grow. It is not going to go into 
negative growth is the current projection. But it will not grow 
very fast. And obviously, that deceleration is itself going to 
be a source of concern and will have an impact on some of the 
lives there. As you have indicated, Afghanistan is going to 
remain dependent on international assistance for some time.
    On the military side, that is going to be largely a 
function of the threat. If the threat diminishes, their 
dependence on that is going to diminish commensurately. If the 
threat does not diminish, then it is very hard to see how they 
could possibly afford a security structure of the current 
dimensions at any time in the foreseeable future.
    On the civilian side, I think we will be seeking assistance 
in the coming year that gets us back on the track which was a 
track of gradual diminution rather than abrupt diminution. So 
it would be a larger request than we received this year, but it 
would be a smaller request than we had requested this year and 
a smaller request than we received the year before last. So we 
do have a glide path. I cannot remember. It is about a 16-
percent decrease over the next several years.
    And I think the important thing to measure this against is 
what we were spending when we had 100,000 troops there or even 
this year, 50,000 troops. The costs of a security assistance 
program and a civilian assistance program are dwarfed by the 
costs of a continued large-scale military presence in the 
country.
    Senator Murphy. A question about their military's 
capabilities. Ms. Magsamen, you gave some pretty robust 
testimony on this subject. So maybe I will direct the question 
to you.
    Admittedly, the last time I was there was a little bit over 
a year ago. I was impressed by the capabilities of a lot of the 
Afghan counterterrorism units. They are doing good work, but 
they, at the time, were deeply reliant on U.S. close air 
support. And I have not heard a lot of rosy estimates in the 
intervening year about the increased capabilities of the Afghan 
Air Force. So tell us about the ability for us to train up a 
competent air force, frankly, to many of our minds without 
buying a whole bunch-load of Russian helicopters to do the job 
so that when we leave, their very competent ground forces are 
not compromised by incompetent air capability.
    Ms. Magsamen. Sure. The Afghan Air Force is doing more 
support operations to the ANSF every day. Aviation programs, 
like I said earlier, I think are usually the longest lead time 
in terms of--you know, it is very complex to train pilots and 
to help them perform very complex operations with ground 
forces. This is something that is going to be an area of focus 
over the next couple of years.
    We are, in fact, actually going to begin training Afghan A-
29 pilots in January. So that is one of the areas. This is an 
area we are going to be focusing on a lot over the next 6 
months.
    So they are making progress. It is going to be long term. 
In terms of providing close air support beyond 2014, that is 
not what we currently have underway, but we will be training up 
their pilots and working with them on this. But it is going to 
be a long-term effort.
    Ambassador Dobbins. I know buying Russian helicopters is 
certainly controversial. I think it is important to recognize, 
first of all, they are a lot cheaper. And secondly, they are 
rather well-suited to operating at high altitudes, as is the 
case in Afghanistan.
    Senator Murphy. Mr. Dobbins, just to jump to one last 
subject. We had a hearing on AUMF here in which the 
administration made the case that even with a repeal of the 9/
11 AUMF, they thought they had most of the powers inherent in 
article 2 to continue to do the kind of counterinsurgency 
efforts that they want to do across the globe. What are your 
thoughts on what a repeal of the AUMF would do for our 
capabilities and necessities inside Afghanistan over the next 
several years?
    Ambassador Dobbins. I am not an expert on this question. I 
do not think we anticipate any diminution in our authorities 
with respect to Afghanistan over the next several years one way 
or the other. But I really have to beg off on the legal aspects 
of it, which I am not well versed in.
    Senator Murphy. Ms. Magsamen, do you have thoughts on the 
consequences of an AUMF repeal?
    Ms. Magsamen. Sure. So I would pretty much answer it the 
same way. I mean, an AUMF question extends far beyond 
Afghanistan, as you know, because AUMF gives us the authorities 
to operate globally against al-Qaeda and affiliated groups. So 
I will also beg off on the legal aspects of this question. We 
could take it for the record.

[Editor's note.--The information referred to above was not 
available at the time this hearing went to press.]

    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    Thank you both for being here.
    Ambassador Dobbins, I wanted to begin with your statement. 
You actually said something I agree with 100 percent. This 
mission began in 2001 to ensure that Afghanistan could never 
again be used by those who would plot against the United States 
or our allies, which was certainly the primary reason why we 
went in because 9/11 was coordinated from there.
    So I wanted to analyze the recent decision made by the 
President in light of that stated goal, the recent decision to 
release five Taliban commanders and others back to Qatar.
    The first thing I want to point to is this report from the 
State Department on terrorism, and it basically reads--these 
folks now have been released to Qatar. Qatar's monitoring of 
private individuals and charitable association contributions to 
foreign entities remain inconsistent. Qatari-based terrorist 
fundraisers, whether acting as individuals or as 
representatives of other groups, were a significant terrorist 
financing risk and may have supported terrorist groups in 
countries such as Syria.
    I wanted to know what specifically has changed in Qatar 
between the time that report was released and June 1st when the 
Taliban deal was publicly announced to give the President 
confidence to overlook the problems outlined with Qatar's 
enforcement mechanisms that were outlined in that State 
Department report. What has changed?
    Ambassador Dobbins. I think a couple of things have 
changed. The first is we negotiated a fairly detailed agreement 
with Qatar covering the degree to which these individuals would 
be monitored and which their activities would be limited to 
ensure that they were not capable, during the year they would 
spend in Qatar, of contributing in any way to the conflict in 
Afghanistan. Secondly, the President spoke to and received 
personal assurances from the Emir of Qatar. And I think the 
combination of those two things gave us the assurance we 
required.
    Finally, I would say that our experience to date--and 
obviously, it has only been a few weeks--has been that the 
Qataris are very assiduous in meeting all of those obligations.
    Senator Rubio. It has been about 2 weeks.
    So the answer is that what has changed is that we got it in 
writing and they told us about it on the phone.
    Ambassador Dobbins. And, you know, personal commitments 
from leaders of states. It means something.
    Senator Rubio. But systemically nothing has changed in the 
government. It is primarily those two things and then, of 
course, the last 17 days you say they have done a pretty good 
job of it so far. Right?
    Ambassador Dobbins. Yes.
    Senator Rubio. By the way, these five operatives that were 
released were not just any five operatives. One was the 
Taliban's army chief of staff and the deputy defense minister. 
One was the deputy director of intelligence. A third was the 
military commander who coordinated Taliban operations with al-
Qaeda. Another one oversaw an al-Qaeda training camp in 
Afghanistan, and the last one planned attacks against the 
international coalition in Afghanistan.
    Of these five individuals that have been released, how many 
do you think will return to the fight against us?
    Ambassador Dobbins. Ultimately, I think it is quite 
possible that all of them might. But I think ``return to the 
fight'' is something of a euphemism.
    Senator Rubio. How many of them will return to be active 
members of the Taliban?
    Ambassador Dobbins. Probably all of them. These people 
either were captured or surrendered within a few weeks of our 
arrival. All but one of them were captured or surrendered in 
2001. One of them that you mentioned was captured a year later. 
So four of them had absolutely nothing to do with the 
insurgency. No connection with IED's or suicide bombing or any 
of those things. They were part of the Taliban government.
    Senator Rubio. Well, you would agree that their status, 
having been former detainees----
    Ambassador Dobbins. I think they will quite possibly 
return. They are middle- or late middle-aged individuals. They 
are not going to be on the battlefield in any meaningful way. 
So again, that is something of a euphemism. And it is not as if 
the Taliban have any lack of individuals like that.
    Senator Rubio. So if they are not that special, why did 
they want them back, all five of these in particular?
    Ambassador Dobbins. I think they felt a sense of loyalty to 
them. I think they did want them back. I do not know that they 
wanted them back because they fill some deficiency.
    Senator Rubio. Well, but they wanted them all back, but why 
these five in particular if they are of such diminished value?
    Ambassador Dobbins. Because these were the five most senior 
ones.
    Senator Rubio. So your opinion is they do not have any 
special abilities or value that give the Taliban----
    Ambassador Dobbins. I would not go that far, but I think 
that the marginal utility from the Taliban standpoint is 
probably marginal.
    Senator Rubio. Let me move on to another issue. Of course, 
this has been mentioned a moment ago about what is going on 
with ISIL in Iraq and they are gaining in strengthen and so 
forth. And this is enlightening in light of the fact that on 
May 27, President Obama announced in the Rose Garden that all 
U.S. forces would depart Afghanistan, leaving behind a normal 
Embassy presence in Kabul with a security assistance component,``just 
as we have done in Iraq.''
    So my question is, do you think if what is occurring in 
Iraq had occurred a month ago before the May 27 announcement--
do you think the President would have reached the exact same 
decision that he announced on the 27th of May with regard to 
Afghanistan, given what we now see happening or occurring in 
Iraq?
    Ambassador Dobbins. I am sorry.
    Senator Rubio. Had what is happening in Iraq over the last 
10 days----
    Ambassador Dobbins. Would that have changed the President's 
decision?
    Senator Rubio. Yes. Do you think that his decision 
regarding the status of forces in Afghanistan would have been 
different in terms of the numbers, the timing, the way it was 
phrased in terms of the timeline----
    Ambassador Dobbins. It might have changed the way it was 
phrased to avoid the Iraq comparison. But otherwise, I do not 
think the substance of the decision would change.
    And I think you have to also ask yourself suppose in 2011 
the Iraqis had asked us to stay for an additional 2 years and 
we had stayed for an additional 2 years and repaired some of 
the additional problems in their structure, might that have 
also led to improvements.
    The President has not decided to pull out of Afghanistan. 
He has decided to stay there at this point 2\1/2\ more years 
and then to continue an Embassy presence beyond that. He 
believes and we have reason to believe that the Afghan 
political and security structures will have developed to that 
point where a continued financial assistance and a continued 
security assistance relationship will be adequate to allow them 
to continue----
    Senator Rubio. So if we reach the end of the 2\1/2\-year 
period or any time in between and it appears that the ability 
of the Afghans to prevent a repeat of Iraq is not sufficient, 
do you think the President will reconsider this decision or the 
timeframe in which it was announced and so forth?
    Ambassador Dobbins. I do not think he is presently disposed 
to reconsider the decision.
    Senator Rubio. So in essence, what is occurring in Iraq is 
not weighing at all on what the President has announced or 
decided to do.
    Ambassador Dobbins. I am not aware of any discussions with 
the President in the last 2 weeks about Afghanistan. So I do 
not know the answer to that question.
    Senator Rubio. The last question is the President----
    Ambassador Dobbins. I do not have any reason to think that 
his view has changed.
    Senator Rubio. The President said that prisoner swaps 
happen at the end of wars. Is the administration planning to 
release any more Taliban prisoners in the runup to the 2016 
deadline for removal of U.S. troops?
    Ambassador Dobbins. I do not know that there is any 
connection between the two. The administration continues to try 
to close Guantanamo by finding ways of transferring people who 
either do not present a threat or who can be sent to locations 
where that threat can be contained. I would anticipate that 
will continue----
    Senator Rubio. Well, the reason why there is a connection 
is because he said that at the end of wars--and he says the war 
in Afghanistan is over or coming to an end--it is normal to 
release prisoners or swap. When we get to that point in 2016 
when, in fact, there is no military presence outside of our 
Embassy situation, do you know of any conversations occurring 
about what we would do with the rest of the Taliban prisoners 
since the war against the Taliban, according to the President, 
is now over?
    Ambassador Dobbins. I do not know of any conversations 
which link either the end of this year or the end of 2017 to 
prisoners in Guantanamo. There is an effect on prisoners being 
held in Afghanistan where we will lose our legal basis to hold 
any prisoners at the end of this year. Now, we do not hold any 
Afghan prisoners at all at the moment. We hold some non-Afghan 
prisoners in Afghanistan at the end of the year, and we will 
not be able to hold them after the end of the year.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. I want to just 
follow up on the Bergdahl matter. I had not intended to get 
into it.
    Senator Rubio stated a number of specific concerns about 
the five detainees that were released. Let me put some other 
facts on the table that have now been testified to in open 
session by Secretary Hagel. There is no evidence that any of 
the five were engaged in an activity or planning against the 
United States. It might have been because of how early they 
were arrested or surrendered, but there is no evidence that any 
of the five took any steps or were involved in any planning 
activity against the United States. That is an important fact 
that I think needs to be put onto the table.
    Why did the Taliban want them back? Why did the United 
States want Bergdahl back? We did not want Sergeant Bergdahl 
back because of the critical role he was going to play in our 
military operations. We wanted him back because we bring our 
people home. I suspect there was a similar motive with respect 
to the other side.
    My understanding about this is the five detainees are 
detained at Guantanamo as prisoners of war because they were 
Taliban members, but not detained as enemy combatants because 
they had taken any steps against the United States.
    My understanding--and I think this was part of our earlier 
conversations here--is that as prisoners of war, when the war 
is over, international law suggests that these individuals 
would have to be released. The President gave a speech at West 
Point in the last 2 weeks saying combat operations are finished 
in Afghanistan in 2014. Under international law, there is an 
argument that this particular agreement puts these individuals 
under restrictions for a longer period of time than they would 
be under a restriction because of international law.
    So I have some concerns about the Bergdahl situation, 
largely about the notice to Congress. I think any White House 
that can plan a Rose Garden ceremony with the parents of 
Bergdahl could have called the heads of the Intelligence 
Committee to tell them what was going on. And I view that as 
not an oversight but as something, frankly, intentional. That 
chaps me a good deal.
    But the notion that these five Taliban members are going to 
get back into a war against the United States when there is no 
credible evidence that they were ever engaged in activities 
against the United States is something that has to be 
considered in figuring this out.
    And I do think, Mr. Chairman, we probably need to kind of 
get to the bottom of this, extending of the hearing that we had 
about the AUMF that you chaired. The testimony from the 
witnesses was what do you have that you might be worried about 
giving up if the AUMF expires. They said the continuing status 
of U.S. troops in Afghanistan, the ability of the DOD to do 
counterterrorism operations, and the status of all Guantanamo 
detainees could potentially change with the AUMF. But given 
that the five detainees in this instance were not detained 
because of actions against the United States but only as 
prisoners of war because they were members of the Taliban, my 
understanding of international law is if combat operations are 
over in 2014, there is an international law argument that they 
would need to be released without restrictions. They may be 
under more severe restrictions because of this deal than they 
would have been otherwise.
    We had a hearing in my subcommittee on April 30 about 
Afghanistan's transformation past 2014 focusing on some of the 
social factors, women in school, increases in life expectancy, 
a 20-year increase in life expectancy in the last decade. 
Twenty years times 30 million people is like 600 million years 
of extra human life. We talked about those things.
    And there was a bit of evidence at that hearing that I 
thought was pretty staggering--or testimony, General Allen 
testifying. And he said that he thought for the Government of 
Afghanistan post 2014, the existential threat was not the 
Taliban but the existential threat was corruption. I wonder if 
either of you would offer an opinion upon that testimony that 
General Allen gave.
    Ambassador Dobbins. Yes. I guess it depends on the 
existential threat to whom. In terms of Afghanistan's 
development and to a functioning and increasingly prosperous 
country, I think corruption is a very substantial obstacle. It 
is interesting that that corruption and economic development 
have displaced security as the top concerns for most Afghans. 
And the election campaign demonstrated that what the candidates 
mostly talked about was how they were going to fight corruption 
and improve the economy, not how they were going to fight the 
Taliban.
    Nevertheless, even though the Afghans remain very concerned 
about corruption, they also remain optimistic about their 
future, positive about their government, and generally 
confident in their institutions. So they can hold sort of two 
thoughts in their head at the same time. One is this corruption 
is really awful. The second thought is this is better than we 
have ever had it in our lifetime experience and that of our 
fathers. And so I think they have got both of those concepts 
down pretty strongly.
    As I said I think earlier, it is hard to make a distinction 
between corruption and patronage in some cases. You have got a 
country which particularly back in 2002, 2003 had weak or 
nonexistent formal institutions, and it was a shared patronage 
system that held the country together and that is still the 
case to some degree. Now, that has to diminish over time. You 
are never going to do away with patronage entirely, but you do 
have to corral it, regulate it, limit it, and create a more 
level playing field for people. The structure of the 
international assistance programs have laid out a road map, if 
you will, for Afghanistan to make a number of reforms and a 
certain proportion of our assistance and assistance from other 
countries is contingent on some of those reforms being made 
over time.
    Now, my experience even in highly developed countries like 
the United States is it is hard to make more than one reform at 
a time. We are still absorbing changes in our health care 
system. And we are asking Afghanistan to make reforms of 
comparable magnitude in terms of how it affects the lives of 
individuals and particularly how it affects the political 
system. We have got about 18 such changes we would like them to 
make all at once, which has not happened and is not going to 
happen. They are making slow progress. Both candidates have 
probably listed corruption, along with economic development, as 
their top priorities, and I think we will have to continue to 
encourage them to deliver on those.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just one or two final questions. In 2014, the State 
Department's Bureau of Counterterrorism report said that ``Afghan, 
Taliban, and Haqqani Network leadership and 
facilitation networks continue to find safe haven in Pakistan, 
and Pakistani authorities did not take any significant military 
or law enforcement action against these groups.''
    Now, as I mentioned, Pakistan recently launched an 
operation into North Waziristan ostensibly to target elements 
of the Pakistani Taliban that have attacked the state. But I am 
really very skeptical that they will attack or target the 
Haqqani Network during the operation.
    What is your current assessment of Pakistan's willingness 
to confront the Haqqani Network during the operation? Either 
one of you.
    Ambassador Dobbins. In the last few weeks, we have 
addressed this with the Pakistani leadership, making clear the 
priority we attach to addressing the challenge that the Haqqani 
Network represents to our forces and to our facilities and to 
our personnel in Afghanistan. We have been assured by Prime 
Minister Sharif, by General Raheel Sharif, by the Interior 
Minister Chaudhry, by the head of the ISI, General Zaheer, and 
today in a conversation with General Mahmoud, the chairman of 
their joint chiefs, that they are going to treat all militant 
groups similarly and that they are going to force all foreign 
militants out of northwest Waziristan and Pakistan.
    I think your concern is justified. I think we will be 
examining this carefully. We have gotten the right assurances, 
but there is a historical pattern of activity, which I referred 
to in my written testimony and which I read to you, which 
indicates that there are habits here that are going to be 
difficult to break. And so I think we have made our position 
clear. They have said the right things.
    The Chairman. That is a lot of assurances.
    Ambassador Dobbins. Yes.
    The Chairman. But actions speak louder than words.
    I think the Pakistanis look at the Haqqani Network much 
different than they look at the Pakistani Taliban in terms of 
their own interests. And I also think that for a variety of 
political, governing, and other reasons, they do not target 
this network. I hope that as we are considering what our 
continuing engagement with Pakistan is, that we are going to 
not only seek commitments, but we are going to judge 
accordingly how they act in terms of our assistance to them 
because I think this is incredibly important. And if you do not 
make it--if performance in this regard does not become a 
measurement, then I think all the assurances in the world will 
mean nothing.
    Ambassador Dobbins. I agree.
    The Chairman. Let me ask you about the review that is going 
on with our policies toward the countries of Central Asia. If 
we are going to have sustainability in terms of the economic 
situation in Afghanistan, this is going to be pretty critical. 
And the progress that has been made on the CASA-1000 project, 
which will provide electricity from Central Asia to Afghanistan 
and Pakistan, is significant, but I am thinking about what 
obstacles there are to the completion of that. What is it going 
to mean in terms of being able to move forward on the new Silk 
Road project? I know they are not directly connected, but if 
you can achieve one, then maybe you can actually make progress.
    Ambassador Dobbins. What is the second one?
    The Chairman. The new Silk Road project.
    Define our interests as part of the Central Asian effort 
with Uzbekistan. I know you are dealing with Afghanistan and 
Pakistan, but these are interrelated from my perspective. To 
the extent that you can share some insights into that.
    Ambassador Dobbins. Well, the CASA-1000 or 5000 is moving 
forward. It has gotten international blessing. It is getting 
international support from the United States, from the 
international financial institutions. All of the necessary 
countries have bought into it in principle. The last I heard, 
which was a few weeks ago, was that there was still a pricing 
negotiation going on between Afghanistan and Pakistan, that is, 
how much Pakistan would pay Afghanistan for the electricity 
that was being transmitted over Afghanistan to Pakistan--so it 
is essentially a commercial negotiation, if you will--would 
still have to be resolved. And then, of course, the lines have 
to be built, and that will depend in part on the security 
situation, although with respect to that project, people seem 
more sanguine that it can be done within the current 
environment, whereas some of the other larger investments like 
a pipeline from Turkmenistan would probably require more 
significant improvements in the security situation before it 
became viable.
    As to the new Silk Road, that is, of course, a complex of 
proposals and ideas rather than a single commercial venture 
like the CASA venture. And I think the Chinese have their own 
Silk Road vision, which they arrived at independently but which 
is largely compatible with our own. Central and South Asia is 
the least economically integrated region in the world. That is, 
the countries of this region trade less with each other than 
the countries of any region in the world. Pakistan, for 
instance--its largest market is in the United States, despite 
the fact that it is neighboring India and China. That is crazy 
obviously. And that is symptomatic of the region as a whole, 
although not to quite that same extreme degree. So breaking 
down those barriers to trade and creating commercial links, 
including infrastructure links, roads, electric grids, 
pipelines, but also just breaking down the barriers is what the 
new Silk Road concept is really about.
    It is not heavily funded on the part of the United States. 
I mean, we are putting political energy, limited resources, and 
pushing it. China is going to be hosting a meeting in August on 
the Heart of Asia group which will address these issues to some 
degree, and there will be other regional issues.
    The Chairman. So that is far off. The realization of this 
is years away.
    Ambassador Dobbins. I mean, you would have to go through it 
project by project. Some of them are easier than others. In 
terms of Uzbekistan, first of all, I think it is notable that 
among the targets that the Pakistanis are going after very 
vigorously now are Uzbek groups in Pakistan have been one of 
their prime targets in the recent military actions there.
    Uzbekistan tends to prefer to work bilaterally rather than 
multilaterally. So they are kind of resistant to larger 
groupings like in the new Silk Road context. They tend to be a 
bit more resistant than some of the other countries of the 
region to working in anything except purely bilateral 
arrangements which can sometimes create a problem.
    The Chairman. Ms. Magsamen, what is our security 
cooperation with Uzbekistan?
    Ms. Magsamen. Let me comment more generally on Central Asia 
and I will get to Uzbekistan.
    A stable and secure and independent Central Asia is 
definitely in our interests, and as you know, the Central Asian 
states have been critical during this period in Afghanistan, 
especially on the NDN network for us. We have in place a series 
of security cooperation efforts underway with pretty much all 
of the Central Asian states focused on border security, 
counternarcotics, countering extremism, and also helping them 
build up their defense institutions, so working through defense 
reform efforts. We have a number of tools at our disposal going 
forward in terms of FMF and IMET and DOD counternarcotics 
funds, DOD 1206 funding, and we intend to use them going 
forward. I think the next couple of years, the Central Asian 
states are going to be increasingly looking to us on the 
security front, and I think it will be important for us to 
respond accordingly to their concerns.
    In terms of cooperation in Afghanistan and Uzbekistan, 
Uzbekistanis--you know, they are very concerned as well about 
the potential for terrorism groups to spread into Central Asia, 
as you know, and in particular the IMU, the Islamic Movement of 
Uzbekistan, is an area of increasing concern for them. And that 
group has been focused largely in Afghanistan, but they are 
watching that closely to see whether it moves into Central 
Asia.
    But we are focused going forward mainly on the border 
security piece and the CT cooperation with many of these 
countries.
    The Chairman. Particularly in Uzbekistan, is this about 
border security and counterterrorism?
    Ms. Magsamen. I would have to get you the specific answers 
on the breakdown of the security cooperation.
    The Chairman. If you would, because I am concerned about 
the human rights situation in Uzbekistan and recently wrote to 
President Karimov on behalf of five political prisoners, which 
I would like to include in the record, the letter that we sent 
to him for this hearing, which I know Senator Durbin has also 
been really concerned about, a member of the committee as well.

[Editor's note.--The information requested and the letter 
referred to above were not made available at the time this 
hearing went to press.]

    The Chairman. So I would like to know exactly what we are 
doing with the Uzbeks, so I can judge on that.
    Ms. Magsamen. We will follow up with a full answer. The 
Chairman. Fine. Thank you.
    And finally, Ambassador, today Dr. Abdullah has called for 
a halt to the vote counting citing allegations of widespread 
fraud. Now, I heard your comments before. We are going to go 
through a difficult period of time. But what is our role in 
moving through this potentially contentious period in terms of 
having an improving dialogue between the two campaigns and 
through this process?
    Ambassador Dobbins. Well, we are urging that both sides 
remain engaged with the electoral institutions, and we regret 
any moves to the contrary. So we are talking to both of the 
candidates regularly. We are encouraging them to talk to each 
other, which does not seem to be happening as frequently as it 
should either directly or via intermediaries. We are certainly 
talking to the electoral institutions. The international 
community has observers who observe the vote count, as the two 
candidates are permitted to do, as it goes forward. And we are 
in regular contact with President Karzai who, as I have said, 
so far has been playing a responsible role in trying to keep 
the candidates in the game.
    Our basic view is that the electoral institutions have to 
be supported. They have to be given a chance to do their job, 
that there certainly was fraud. There were significant levels 
of fraud in the first round and almost certainly in the second 
round. There are mechanisms for challenging and dealing with 
this fraud, and these mechanisms have to be given a chance to 
work.
    The Chairman. Senator Corker.
    Senator Corker. Yes, Mr. Chairman. I will be very brief.
    First of all, thank you for being here today and thank you 
for what you do. Mr. Ambassador, I get the strong sense that 
you pursued a different policy relative to laying out the 
timelines. You do not have to answer that. I would just say 
that while I hope that we are able to have the kind of success 
in Afghanistan that will warrant that type of withdrawal--I do 
hope, as you continue on, if you see things on the ground that 
show that that type of withdrawal, arbitrary and precipitous, 
will have a damaging effect, that you will urge strongly that 
the administration consider a different course of action. I 
think you will. I think you have done that in private sessions 
with us. Again, I know many others at the State Department, for 
instance, on Syria and other places have wished that we would 
take a different course of action, and I know the White House 
has overruled. But I hope you will continue on the path that I 
think you have been on.
    And secondly, I would just ask the question in closing. The 
chairman and I are sitting down with the Joint Chief from 
Pakistan that you referred to earlier at 5 o'clock. I think 
most of us have felt both the intelligence agency and the 
military have been double dealing with us, and I think it is 
pretty much public record that that is the case. I know they 
are here to convince us that something is different now, and 
they are going to strongly go into North Waziristan.
    I would just ask. I know the Prime Minister has urged that 
not to occur and has urged us to pursue policies that would 
allow them to have some kind of an agreement with the Taliban 
and other terrorists in that region. Is the Prime Minister 
firmly supportive of what the military is doing? I know in 
their country, many Americans do not realize that the military 
and the civilian piece are very separate, but is the Prime 
Minister strongly supportive of that activity?
    Ambassador Dobbins. Yes. First of all, I think the Prime 
Minister's view and the civilian government's view was that 
they had to give the elements of the TTP a chance to climb down 
to disarm and to respect the constitution and operate within 
it. And they engaged in negotiations with that objective, and 
they did that without any objection from us. I do not think 
there were great expectations that that would succeed, but I 
think their feeling was that that was a necessary step both 
because they could peel some elements of the insurgency off as 
a result and, secondly, because they needed to go into a 
massive operation of this sort, which is going to produce a lot 
of refugees, a lot of costs, a lot of damage to innocent 
people, as well as to the guilty, on the basis of a strong 
national consensus.
    They now have a strong national consensus. The Prime 
Minister has authorized and directed this particular action. 
While I think the military may have had different views 
throughout this period, they have saluted and done what they 
have been told. So when they were told not to take action, they 
did not. When they were authorized to take action, they are now 
taking the action.
    So while you are right that historically there has been a 
strong distinction between civilian and military leadership and 
while this has not gone entirely away, the two are a lot closer 
and civilian authority over the military is gradually being 
demonstrated. And we assume this will be a gradual process.
    I have told you about the assurances we have received with 
respect to the Haqqani Network. If you are going to be having 
meetings, I think you need to not only hear those assurances 
but make clear that you are going to evaluate your own 
attitudes based on the degree to which you believe those 
assurances are fulfilled.
    Senator Corker. Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    I wanted to briefly address this issue--two things. Senator 
Kaine a moment ago pointed out that none of these five--there 
are any links that any of these five had ever been involved in 
direct attacks against the United States. But in fact, it is 
much more complex than that. The 9/11 Commission, for example, 
found that the hijackings in the United States on September 11 
of 2001 were a culmination of a three-step plan that al-Qaeda 
had.
    The first part, of course, was the assassination of the 
Northern Alliance commander, Ahmad Shah Massoud.
    The second was the following day on September 10, al-Qaeda 
and the Taliban took their second step. It was a delayed 
Taliban offensive against the Northern Alliance, which was 
apparently coordinated to begin as soon as that first step took 
place. They wanted to weaken the opponents of the Taliban 
because they knew there would be retribution for the 9/11 
attacks. And the 9/11 Commission found that Fazl, one of the 
five people that have been released, was the one who was one of 
bin Laden's chief lieutenants in this operation who helped 
carry this out.
    By the way, of the five that have been released, two are 
wanted for U.N. war crimes. So I think that this notion that 
somehow these individuals have never directly plotted against 
the United States--you could probably say that about every 
member of 
al-Qaeda for the most part. They were not directly in the room 
plotting the 9/11 attacks, but they certainly were key 
facilitators of providing a safe haven for al-Qaeda to carry 
these things out. And as the 9/11 Commission found out, at 
least one of them was a key operative in this three-step plan 
leading up to 9/11.
    The second statement that has been made here today is that 
the war is over and that when wars end, this is normal to 
exchange prisoners. And in fact, we may have no legal basis to 
hold them.
    But I am curious. Earlier today you said to us--and it 
happens to be the absolute fact--that the Taliban has not 
gotten that memo. For example, as you stated, the Taliban is 
not holding back. They are still shooting at Americans. They 
are still planting IEDs. They are still trying to kill 
Americans.
    Can I ask? Do you anticipate that in 2016 when we are down 
to only an Embassy presence, will the Taliban still pose a 
mortal threat to Americans in Afghanistan irrespective of the 
number of people we have there? Will they will be shooting at 
Americans?
    Ambassador Dobbins. Okay. Let me try to answer this in some 
order.
    First of all, none of those five are wanted for U.N. war 
crimes. None. They may have committed war crimes, but the 
United Nations is not seeking them. If by the United Nations, 
you presumably mean the International Criminal Court. I do not 
believe the International Criminal Court----
    Senator Rubio. They have all been linked by United Nations 
groups with, for example, the slaughter of Shiites.
    Ambassador Dobbins. I am not sure what ``linked by United 
Nations groups'' means in that case. There are human rights 
advocates, including human rights elements of the United 
Nations, that have indicated that they may be associated with 
those crimes. That is absolutely right. That is different from 
saying----
    Senator Rubio. So are you confident that none of these 
individuals have committed human rights violations?
    Ambassador Dobbins. No, of course not. Quite the contrary.
    Senator Rubio. You think they have.
    Ambassador Dobbins. I think there are credible allegations. 
I think that is all you can say at this stage. But, yes, the 
allegations seem credible. They are still allegations, but they 
are credible. But there is no judicial process. They have not 
been indicted. Afghanistan is not seeking them. The ICC is not 
seeking them. So it is not as if they are evading some warrant 
that is out. Okay? So they are not wanted.
    Senator Rubio. They have been named in allegations before 
U.N. tribunals. They have been named----
    Ambassador Dobbins. Just one of them, maybe two. I mean, 
your information may be correct. But there have been credible 
allegations about linkages to large-scale atrocities that 
probably could be qualified as war crimes.
    Senator Rubio. What about Fazl's involvement in the three-
step plan leading up to 9/11? Now, the 9/11 Commission----
    Ambassador Dobbins. Let me get to that.
    Now, this is something you probably really need somebody 
from the intelligence community. My impression is that we do 
not believe that anybody in the Taliban, including Mullah Omar, 
were witting to the 9/11 attack. They did not know about it. 
They were not told about it. Now, I could be wrong. So that is 
something the--that is my impression that we do not believe 
that there was collaboration in planning that specific attack 
and that they were not aware that it was going to take place. 
So the idea that there was a three-step plan in which the 
Taliban were witting to all thee steps or part of it--I am not 
sure that our intelligence analysis would validate that.
    Senator Rubio. Would you agree that the first two steps 
were coordinated with al-Qaeda? The Northern Alliance offensive 
leading up to 9/11. Let us assume for a moment, for the sake of 
argument, that the Taliban was not told that on 9/11 there is 
going to be an attack. They certainly coordinated with al-Qaeda 
to carry out both the suicide attack and the offensive on the 
10th. Right?
    Ambassador Dobbins. The Taliban carried out the offensive. 
So, obviously, they were witting to it. They were the principal 
instrument of it. I do not know whether they were witting to 
the attack on Massoud. It is quite plausible, but I do not 
know.
    And then you had a third point.
    Senator Rubio. The points about the Taliban and the----
    Ambassador Dobbins. Oh, yes. Are they going to continue to 
present a threat? Quite likely, just as there are other 
countries in the world in which we have large embassies in 
which we are under threat. And in those cases, within our own 
perimeter, we provide for our own security. Outside the 
perimeter, we depend on the local forces. And our current 
estimate is that by 2017, Afghan forces will be capable of 
holding the Taliban at bay and continuing to secure the large 
population centers, including Kabul.
    Senator Rubio. But I guess the bigger point that I was 
trying to----
    Ambassador Dobbins. Will the Taliban still be targeting us? 
Yes.
    Senator Rubio. I guess my bigger point is traditionally 
when you talk about the end of a war, what you are talking 
about is both sides stop shooting at each other. My point is we 
may stop shooting at them, but they are still going to be 
trying to kill us.
    And I think the bigger point is, when you talk about these 
exchanges at the end of a war, Sergeant Bergdahl is returning 
to his family. By your own testimony here today, all five of 
these may be potentially, quite possibly returning to the 
Taliban to the same group that still targets us.
    So I do not think it is fair to say that the war is over. 
Certainly we may feel that way or some of our policymakers may 
feel that way. I do not think the Taliban feels that way.
    Ambassador Dobbins. What the President has said is that 
United States combat operations are going to cease in 
Afghanistan at the end of the year. But, obviously, there is 
going to continue to be a war in Afghanistan, and we are going 
to be continuing to support----
    Senator Rubio. Again, I only raised that because the 
statement was made that at the end of wars, it is normal----
    Ambassador Dobbins. Fair enough.
    Senator Rubio. My argument is the people you are releasing 
them to do not believe the war is over. In fact, as long as any 
American is present there, they will be in danger of being 
attacked by them.
    Thank you.
    The Chairman. Well, thank you to both for your testimony 
and your service.
    Ambassador Dobbins, I must say, while I may not always 
agree, your depth and scope of knowledge here is an 
extraordinary asset to our country, and I appreciate the 
particular commitment you have, having come back to service in 
this regard. So thank you very much.
    Thank you both for that.
    The hearing record will remain open until the end of the 
day on Friday.
    And with that, this hearing is adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Response of Ambassador James Dobbins to Question 
                  Submitted by Senator Robert Menendez

    Question. Ambassador Dobbins stated that the U.S. ``New Silk Road'' 
initiative is largely compatible with China's ``Silk Road Economic 
Belt'' initiative. Please outline the compatibilities between the two 
initiatives and the potential for U.S.-China coordination and 
cooperation on economic development in Central Asia.

    Answer. Through the New Silk Road initiative, the United States 
supports energy, trade, transport, people-to-people, and other linkages 
that expand regional economic cooperation and development between 
Central and South Asia. Given both the challenges of building 
connectivity in one of the least integrated regions in the world and 
specific U.S. interests in the region's development, we view working 
with other partners and countries, including China, as a means to 
enhance stability, security, and prosperity in the region.
    China is one of Central Asia's largest trading partners, and 
Chinese objectives in the region include developing a Eurasian Trade 
Corridor that facilitates land transit of goods from China to Europe. 
China has also focused on infrastructure projects, including pipelines 
to bring natural gas from Turkmenistan and Kazakhstan to China. Through 
its ``Silk Road Economic Belt,'' China has prioritized infrastructure 
links between Central Asia and China. Chinese support for Central Asian 
road and rail infrastructure has led to decreased transit time and 
costs for exports. There are a number of other initiatives underway in 
the region, including the Asian Development Bank's Central Asia 
Regional Economic Cooperation (CAREC) program, that also advance the 
prospects for increased trade and economic investment across borders.
    Chinese efforts to develop primarily east-west links can complement 
some of our efforts to develop north-south trade routes linking Central 
Asia and South Asia. The United States engages with China on the region 
and regional economic connectivity through bilateral consultations, 
mutual support of CAREC activities, and as part of the ``Heart of 
Asia'' Istanbul Process under which a number of cross-border economic 
initiatives have been promoted. In fact, China is hosting a Senior 
Officials Meeting of the Heart of Asia process in July and a 
Ministerial in August. The Heart of Asia promotes an integrated region, 
with a particular focus on addressing security and economic issues 
related to Afghanistan. In both CAREC and the Heart of Asia process, we 
see the opportunity for further discussions and potential cooperation 
with China. Where we have shared interests, and can promote open trade 
and transparent investment and business climates, we will seek to do 
so, in cooperation with all of the countries of the region.
                                 ______
                                 

              Responses of Kelly E. Magsamen to Questions 
                  Submitted by Senator Robert Menendez

                          civilian casualties
    Question. The United Nations reported that 121 civilian casualties 
were attributed to the Afghan Local Police (ALP) in 2013. The report 
also included documented cases of torture by the ALP. How will the U.S. 
work to prevent human rights abuses by the ALP and the broader Afghan 
National Security Forces after 2016? How will you work with the new 
Office of Security and Human Rights in the Bureau of Democracy, Human 
Rights, and Labor at the State Department to ensure compliance with the 
Leahy Law?

    Answer. The Department of Defense (DOD) is committed to deterring 
human rights violations by the Afghan National Security Forces (ANSF) 
and promoting accountability within the Afghan Government. An ANSF that 
operates effectively and with respect for human rights is central to 
the U.S. strategy in Afghanistan. This respect for human rights is 
integral to the ANSF's ability to provide for Afghanistan's security, 
to retain public support, and to continue to receive international 
community backing for ANSF development programs.
    In helping build the ANSF, the United States has assisted 
Afghanistan in implementing an eight-step vetting process for new 
recruits to the ANSF, which includes identification requirements; 
background, medical, and drug screening; input from village elders or 
guarantors; and biometric enrollment. This effort has helped to reduce 
the number of high-risk recruits accepted into the ANSF. Additionally, 
the United States has assisted the ANSF to develop training programs on 
human rights and law of war standards for each new recruit. This 
includes emphasis on the critical responsibility of each member of the 
ANSF to conduct their duties in a professional manner, and in alignment 
with international norms. As the U.S. presence in Afghanistan declines 
over time, we will encourage the ANSF to maintain focus on these 
programs.
    DOD has also worked closely with the Department of State to develop 
implementation guidance for the new DOD Leahy law, which is being 
finalized now. We continue to work with State on vetting procedures and 
remediation standards to ensure compliance with the DOD Leahy law in 
Afghanistan.
    Finally, DOD recognizes that sustained engagement is central to 
emphasizing the importance of human rights. As such, respect for human 
rights continues to be a key theme of DOD and U.S. Forces--Afghanistan 
(USFOR-A) efforts in their engagements with Afghan counterparts.
                 timeline to enhance ansf capabilities
    Question. Please provide a timeline of the U.S. plan to enhance the 
ANSF's capabilities by the end of 2016 to operate independently of U.S. 
armed forces, particularly with regard to close air support, logistics, 
and medical evacuation.

    Answer. The capability gaps we expect to remain after the 
International Security Assistance Force mission ends on December 31, 
2014, include air support (e.g., MEDEVAC and CAS), intelligence, 
special operations, and security ministry capacity (including 
logistics). U.S. and coalition partners remain committed to training, 
advising, and assisting the Afghan National Security Forces (ANSF) 
after 2014 as part of the NATO-led Resolute Support mission, provided 
the necessary legal frameworks are in place. The main focus of the 
Resolute Support mission will be on closing these capability gaps.
    The A-29 ``Super Tucano'' will provide the ANSF with a limited CAS 
capability. Afghan pilots and maintainers are scheduled to begin 
training on the A-29 in the United States in February 2015. Initial 
deliveries of A-29s to Afghanistan will begin in early 2016, with full 
operational capability occurring in 2018. DOD is also assessing other 
options to further close the CAS gap.
    Development of the Afghan logistics system, including maintaining 
the $13 billion in equipment that has been provided using the 
Afghanistan Security Forces Fund (ASFF), is one of our highest 
priorities. ASFF-funded cases are being implemented that will provide 
sustainment support for major end items. These efforts extend to the 
development and improvement of institutional logistics and maintenance 
training capabilities of the Afghan National Army and Police. U.S. 
support and technical assistance for the development of the Afghan 
logistics system will be a focus of our future efforts.
    MEDEVAC is currently provided by the Mi-17 helicopter fleet. 
Restrictions on DOD's access to Russian industry for parts and 
engineering services would severely degrade this fleet and undermine 
ANSF MEDEVAC/casualty evacuation capabilities.
                  security cooperation with uzbekistan
    Question. Please describe U.S. security cooperation with 
Uzbekistan. How will it change based on the troop drawdown from 
Afghanistan? I remain very concerned about human rights in Uzbekistan 
and recently wrote to President Karimov on behalf of five political 
prisoners. Please tell me how the Defense Department specifically 
engages with the Uzbek Government on human rights.

    Answer. Uzbekistan has been an important partner for the United 
States as an integral participant in the Northern Distribution Network 
(NDN), which has been an important route for supplies to our Forces in 
Afghanistan. During the surge and during the nearly year-long closure 
of Pakistan cargo routes, NDN routes through Uzbekistan were essential 
to sustaining U.S. military forces in Afghanistan. To a lesser extent, 
the NDN is being used for retrograde of materiel out of Afghanistan. 
This cooperation with Uzbekistan will continue beyond the end of 2014, 
as the Department of Defense intends to maintain multiple, redundant 
supply lines to Afghanistan for as long as the United States has Forces 
in Afghanistan or is providing support to the Afghan National Security 
Forces (ANSF).
    As a participant in the NDN, Uzbekistan faces an increased risk 
from extremist forces. U.S. security and military assistance to 
Uzbekistan (e.g., Foreign Military Financing (FMF), International 
Military Education and Training (IMET), and counternarcotics-related 
assistance) is intended to help strengthen Uzbekistan's capability to 
maintain its border security and to build the capacity of Uzbek 
security forces to deter and defend against potential extremist 
threats.
    As you know, the Department of Defense is committed to upholding 
the intent and the letter of the DOD Leahy law and understands the 
value of robust human rights vetting. Recipients of DOD-funded 
assistance are vetted under the DOD Leahy law. Observance of human 
rights is included in all training and assistance programs, and Defense 
officials routinely discuss respect for human rights in high-level 
dialogues with Uzbekistan counterparts.
                                 ______
                                 

          Responses of Ambassador James Dobbins to Questions 
                    Submitted by Senator Marco Rubio

    Question. How many of the five Taliban commanders released in the 
prisoner swap for SGT Bergdahl have been accused of committing war 
crimes?

    Answer. None of the five Taliban members transferred to Qatar have 
been the subject of arrest warrants by an international tribunal. 
According to human rights organizations, at least one of the Taliban 
members may be implicated in atrocities that occurred before 9/11, but 
such reports do not necessarily provide a legal basis for detention.

    Question. Were these individuals' records of committing atrocities 
against innocent Afghans considered when their release was being 
reviewed?

    Answer. These reports of atrocities against innocent Afghans 
occurring before the September 11, 2001, attacks were not the legal 
basis under which the five Taliban detainees transferred to Qatar were 
captured and subsequently held at Guantanamo Bay. The administration 
implemented a rigorous process that reviewed each of the five Taliban 
detainees who were transferred, including any information about the 
detainees' military experience in Afghanistan's civil wars. There were 
no illusions about these five detainees, who were mid- to senior level 
officials in the Taliban regime and party to violence against other 
Afghans. However, the five detainees have not been directly connected 
to any U.S. deaths.

    Question. Was an assessment done of the likelihood that these 
individuals, if they return to the battlefield, as administration 
officials have admitted is possible, would commit further war crimes 
against innocent noncombatants?

    Answer. Four of the five were assessed as likely to rejoin the 
Taliban in some way. However, we have no reliable indications that any 
of the detainees intend to commit war crimes against noncombatants if 
they rejoin the Taliban. We are of course concerned whenever the 
Taliban, or any other group, attack innocent civilians.

    Question. Is it standard practice for the United States to release 
individuals accused by multiple human rights groups and international 
organizations of ``widespread atrocities?''

    Answer. The five detainees transferred to Qatar were captured and 
subsequently detained at Guantanamo Bay under the Law of War and not on 
the basis of accusations by human rights groups or international 
organizations. Pursuant to Executive Order 13492, the administration 
implemented a rigorous interagency process that reviewed each 
Guantanamo Bay detainee on a case-by-case basis in order to determine 
the proper disposition of each--transfer, prosecution, or continued 
detention pursuant to the Authorization for Use of Military Force 
(AUMF). With respect to the detainees transferred to Qatar, each was 
approved for continued detention pursuant to the AUMF, and none was 
referred for potential prosecution.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
